<html>
<title> - RAISING THE BAR: EXPLORING STATE AND LOCAL EFFORTS TO IMPROVE ACCOUNTABILITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
                  RAISING THE BAR: EXPLORING STATE AND
                LOCAL EFFORTS TO IMPROVE ACCOUNTABILITY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 7, 2013

                               __________

                           Serial No. 113-17

                               __________

  Printed for the use of the Committee on Education and the Workforce


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov

                              --------

                   U.S. GOVERNMENT PRINTING OFFICE

 80-773 PDF                WASHINGTON : 2013

------------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing
  Office  Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; 
       DC area (202) 512-1800  Fax: (202) 512-2104  Mail: Stop IDCC, 
                      Washington, DC 20402-0001



                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Tom Price, Georgia                   Ruben Hinojosa, Texas
Kenny Marchant, Texas                Carolyn McCarthy, New York
Duncan Hunter, California            John F. Tierney, Massachusetts
David P. Roe, Tennessee              Rush Holt, New Jersey
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Timothy H. Bishop, New York
Brett Guthrie, Kentucky              David Loebsack, Iowa
Scott DesJarlais, Tennessee          Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Jared Polis, Colorado
Trey Gowdy, South Carolina           Gregorio Kilili Camacho Sablan,
Lou Barletta, Pennsylvania             Northern Mariana Islands
Martha Roby, Alabama                 John A. Yarmuth, Kentucky
Joseph J. Heck, Nevada               Frederica S. Wilson, Florida
Susan W. Brooks, Indiana             Suzanne Bonamici, Oregon
Richard Hudson, North Carolina
Luke Messer, Indiana

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 7, 2013......................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    Miller, Hon. George, senior Democratic member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Given, Matthew, chief development officer, EdisonLearning, 
      Inc........................................................    21
        Prepared statement of....................................    23
    Gordon, Eric, chief executive officer, Cleveland Metropolitan 
      School District............................................    17
        Prepared statement of....................................    19
    Richardson, Dr. Chris, superintendent of schools, Northfield 
      Public Schools, Northfield, MN.............................    13
        Prepared statement of....................................    15
    White, John, Louisiana State superintendent of education.....     8
        Prepared statement of....................................    10

Additional submissions:
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts:
        Monty Neill, Ed.D., dxecutive director, FairTest, 
          prepared statement of..................................    70


                       RAISING THE BAR: EXPLORING
                        STATE AND LOCAL EFFORTS



                       TO IMPROVE ACCOUNTABILITY

                              ----------                              


                          Tuesday, May 7, 2013

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:03 a.m., in Room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Wilson, Foxx, Roe, 
Thompson, Walberg, Guthrie, DesJarlais, Rokita, Bucshon, Heck, 
Brooks, Hudson, Miller, Andrews, Scott, McCarthy, Tierney, 
Davis, Bishop, Loebsack, Courtney, Fudge, Polis, Yarmuth, 
Wilson, and Bonamici.
    Staff present: James Bergeron, Director of Education and 
Human Services Policy; Casey Buboltz, Coalitions and Member 
Services Coordinator; Lindsay Fryer, Professional Staff Member; 
Nancy Locke, Chief Clerk; Krisann Pearce, General Counsel; 
Mandy Schaumburg, Education and Human Services Oversight 
Counsel; Dan Shorts, Legislative Assistant; Nicole Sizemore, 
Deputy Press Secretary; Alex Sollberger, Communications 
Director; Alissa Strawcutter, Deputy Clerk; Brad Thomas, Senior 
Education Policy Advisor; Tylease Alli, Minority Clerk/Intern 
and Fellow Coordinator; Jeremy Ayers, Minority Education Policy 
Advisor; Meg Benner, Minority Education Policy Advisor; Kelly 
Broughan, Minority Education Policy Associate; Jody Calemine, 
Minority Staff Director; Tiffany Edwards, Minority Press 
Secretary for Education; Jamie Fasteau, Minority Director of 
Education Policy; Scott Groginsky, Minority Education Policy 
Advisor; Eunice Ikene, Minority Staff Assistant; Megan 
O'Reilly, Minority General Counsel; Michael Zola, Minority 
Senior Counsel; and Mark Zuckerman, Minority Senior Economic 
Advisor.
    Chairman Kline. A quorum being present, the committee will 
come to order. Good morning. And welcome to today's hearing to 
examine state and local efforts to improve school 
accountability.
    We have an excellent panel of witnesses with us this 
morning. I would like to thank each of you for taking time out 
of your schedules to join us for this discussion.
    Last month marked the 30th anniversary of the landmark 
``Nation at Risk'' report. By starkly illuminating the failures 
in K-12 schools, this Reagan-era report sparked a national 
conversation on the state of education in America.
    Without a doubt, ``Nation at Risk'' could be considered the 
catalyst for the modern education reform movement. In the years 
following the report's release, states and school districts 
advanced a number of initiatives aimed at raising the bar for 
students.
    The federal government doubled education spending and, 
through the groundbreaking No Child Left Behind law, took steps 
to narrow student achievement gaps, strengthen curricula, and 
demand greater accountability.
    But as I have said before, hindsight is 20/20. Despite the 
best of intentions, we can now see clearly that our federal 
efforts haven't worked as we had hoped. The Adequate Yearly 
Progress metric is entirely too rigid and actually limits 
states' and school districts' ability to effectively gauge 
student learning.
    The antiquated Highly Qualified Teacher requirements value 
tenure and credentials above a teacher's ability to actually 
teach. Strict mandates and red tape result in unprecedented 
federal intrusion in classrooms, stunting innovation.
    And despite a monumental investment of taxpayer resources, 
student achievement levels are still falling short.
    It is time to change the law.
    Last Congress, we advanced a series of legislative 
proposals to rewrite No Child Left Behind. Instead of working 
with Congress to fix the law, however, the Obama administration 
chose to offer states temporary waivers from some of No Child 
Left Behind's most onerous requirements in exchange for new 
mandates dictated by the Department of Education.
    As more states adopt the administration's waivers, my 
concerns grow. These waivers are a short-term fix to a long-
term problem and leave states and school districts tied to a 
failing law. School leaders face uncertainty, knowing the 
federal requirements they must meet to maintain their waiver 
are subject to change with the whims of the administration.
    In the coming months, we will again move forward with a 
proposal to rewrite No Child Left Behind. This legislation will 
be based on four principles that my Republican colleagues and I 
believe are critical to rebuilding and strengthening our 
nation's education system.
    First, we must restore local control and encourage the kind 
of flexibility states and school districts need to develop 
their own accountability plans that provide parents more 
accurate and meaningful information about school performance.
    Second, it is time to reduce the federal footprint. The 
Department of Education operates more than 80 programs tied to 
K-12 classrooms, many of which are duplicative or ineffective, 
each with its own set of strict rules.
    Innovation and effective reform cannot be mandated from 
Washington. We must put control back in the hands of the state 
and local leaders who know their students best.
    Third, we need to shift our focus to teacher effectiveness. 
We should value our educators based on their ability to 
motivate students in the classroom, not their degrees and 
diplomas.
    States or school districts must be granted the opportunity 
to develop their own teacher evaluation systems based in part 
on student achievement, enabling educators to be judged fairly 
on the effectiveness in the classroom.
    Finally, we have got to empower parents. Any effort to 
provide students with a top-quality education must include the 
involvement and support of parents. Whether through charter 
schools, scholarships, tax credits, open enrollment policies, 
or other options, parents should be free to select the school 
that best fits their children's needs.
    As the Nation at Risk report concluded, ``Reform of our 
educational system will take time and unwavering commitment. It 
will require equally widespread, energetic, and dedicated 
action.''
    We have an opportunity to work together in good faith to 
bring true reform to America's K-12 schools. To change the law 
to more effectively support the teachers, school leaders, 
superintendents, and parents who are working tirelessly each 
and every day to ensure our children have the skills they need 
to succeed.
    We laid a considerable amount of groundwork last Congress 
and the Congress before, and the last Congress holding 14 
hearings with dozens of witnesses to explore the challenges and 
opportunities facing our schools.
    I hope we can build upon the progress as we move forward 
with legislation that will change the law by offering states 
and school districts the flexible dynamic education policies 
they deserve.
    Today's hearing is an important part of that effort, and I 
look forward to our witnesses' testimonies.
    With that, I now yield to the senior Democratic member of 
the committee, George Miller, for his opening remarks.
    [The statement of Chairman Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman,
                Committee on Education and the Workforce

    Last month marked the 30th anniversary of the landmark ``Nation at 
Risk'' report. By starkly illuminating the failures in K-12 schools, 
this Reagan-era report sparked a national conversation on the state of 
education in America.
    Without a doubt, ``Nation at Risk'' could be considered the 
catalyst for the modern education reform movement. In the years 
following the report's release, states and school districts advanced a 
number of initiatives aimed at raising the bar for students. The 
federal government doubled education spending and, through the 
groundbreaking No Child Left Behind law, took steps to narrow student 
achievement gaps, strengthen curricula, and demand greater 
accountability.
    But as I've said before, hindsight is 20/20. Despite the best of 
intentions, we can now see clearly that our federal efforts haven't 
worked as we'd hoped. The `Adequate Yearly Progress' metric is entirely 
too rigid and actually limits states' and school districts' ability to 
effectively gauge student learning. The antiquated `Highly Qualified 
Teacher' requirements value tenure and credentials above a teacher's 
ability to actually teach. Strict mandates and red tape result in 
unprecedented federal intrusion in classrooms, stunting innovation. And 
despite a monumental investment of taxpayer resources, student 
achievement levels are still falling short.
    It's time to change the law.
    Last Congress, we advanced a series of legislative proposals to 
rewrite No Child Left Behind. Instead of working with Congress to fix 
the law, however, the Obama administration chose to offer states 
temporary waivers from some of No Child Left Behind's most onerous 
requirements in exchange for new mandates dictated by the Department of 
Education.
    As more states adopt the administration's waivers, my concerns 
grow. These waivers are a short-term fix to a long-term problem, and 
leave states and school districts tied to a failing law. School leaders 
face uncertainty, knowing the federal requirements they must meet to 
maintain their waiver are subject to change with the whims of the 
administration.
    In the coming months, we will again move forward with a proposal to 
rewrite No Child Left Behind. This legislation will be based on four 
principals that my Republican colleagues and I believe are critical to 
rebuilding and strengthening our nation's education system.
    First, we must restore local control, and encourage the kind of 
flexibility states and school districts need to develop their own 
accountability plans that provide parents more accurate and meaningful 
information about school performance.
    Second, it's time to reduce the federal footprint. The Department 
of Education operates more than 80 programs tied to K-12 classrooms, 
many of which are duplicative or ineffective, each with its own set of 
strict rules. Innovation and effective reform cannot be mandated from 
Washington. We must put control back in the hands of the state and 
local leaders who know their students best.
    Third, we need to shift our focus to teacher effectiveness. We 
should value our educators based on their ability to motivate students 
in the classroom, not their degrees and diplomas. States or school 
districts must be granted the opportunity to develop their own teacher 
evaluation systems based in part on student achievement, enabling 
educators to be judged fairly on their effectiveness in the classroom.
    Finally, we've got to empower parents. Any effort to provide 
students with a top-quality education must include the involvement and 
support of parents. Whether through charter schools, scholarships, tax 
credits, open enrollment policies, or other options, parents should be 
free to select the school that best fits their children's needs.
    As the ``Nation at Risk'' report concluded, ``Reform of our 
educational system will take time and unwavering commitment. It will 
require equally widespread, energetic, and dedicated action.''
    We have an opportunity to work together in good faith to bring true 
reform to America's K-12 schools. To change the law to more effectively 
support the teachers, school leaders, superintendents, and parents who 
are working tirelessly each and every day to ensure our children have 
the skills they need to succeed.
    We laid a considerable amount of groundwork last Congress, holding 
14 hearings with dozens of witnesses to explore the challenges and 
opportunities facing our schools. I hope we can build upon that 
progress as we move forward with legislation that will change the law 
by offering states and school districts the flexible, dynamic education 
policies they deserve. Today's hearing is an important part of that 
effort, and I look forward to our witnesses' testimony.
                                 ______
                                 
    Mr. Miller. Thank you very much, Mr. Chairman, and thank 
you so much for bringing this hearing together. I look forward 
to hearing from our witnesses. I think they have a great span 
of experiences and ideas about how we can negotiate this 
reauthorization.
    This hearing comes at a very exciting time in education. 
States, districts, and schools are making large-scale 
transitions, transitions to new standards, to new assessments, 
to new accountability and school improvement systems, and new 
teacher evaluation systems. That is a lot, but they are doing 
it all.
    As these transitions occur, we are seeing innovations at 
all levels. Many districts are looking at technology to help 
solve chronic education challenges, from getting high quality 
teachers and curricula into hard to staff schools, to use of 
new communication devices for students with disabilities.
    Teachers in my home state of California are taking on 
Common Core as their charge and their responsibility. They are 
embracing new standards and assessments as their own in 
supporting and preparing themselves to work within them.
    Districts in many parts of the country are taking a new 
approach to school management, a portfolio approach if you 
will, to ensure that there is, in fact, educational options 
that meet the needs of all students and families.
    Schools are increasingly tapping community partners to 
ensure that students are receiving the wraparound services and 
the extra time that we know is critical to their success. No 
longer are schools content with putting their student on a 
waiting list for wraparound services. They are in fact bringing 
those services to many of the school sites so the students will 
have access to them and helping them in achieving their 
educational opportunity.
    Districts in California are taking a new approach to school 
improvement and are partnering with their peers for school 
review and support in turnarounds. Collaboration is now between 
districts throughout our state.
    However, in all of this great movement forward I fear that 
states, districts, schools, and parents have lost their federal 
partner. Between congressional inaction on ESEA and 
sequestration, we have created an uncertain environment and we 
are not offering people the support that could help them 
succeed in a time of massive transformation. And yet I believe 
we have an incredible opportunity to take schools into the 
future with the proper reauthorization of ESEA.
    Given that what we are seeing in states and districts now, 
it is not time to go backward in our federal policy. Eleven 
years ago, No Child Left Behind shined a light on our 
classrooms. Prior to No Child Left Behind only a handful of 
states publicly disclosed student achievement broken down by 
gender, ethnicity, disability, income, or English proficiency.
    Even fewer states took action on that information. These 
students were invisible. They were struggling in classrooms 
across the country and nobody really knew it. Worse, nobody had 
to do anything to fix it.
    But thanks to the federal accountability provisions, 
schools could no longer keep parents and public in the dark. 
Our schools could no longer exempt significant portions of 
their students from the accountability systems.
    We have learned a lot in the last 11 years. Many things we 
wouldn't be discussing if it weren't for federal involvement. 
Most importantly, the evidence now is irrefutable that all kids 
can learn and succeed despite their zip code and their income.
    Yet, as the author of No Child Left Behind, and as someone 
who has listened to experts in communities across the nation 
about the pros and cons, I recognize that we need to modernize 
the law with fundamental changes.
    Last year the administration opened up the process for 
states to apply for waivers as part of NCLB. As of now, the 
Department of Education has approved waivers in 35 states with 
11 applications still pending. Then and now I would prefer a 
full rewrite of ESEA; however, I understand why the 
administration took this action.
    What excited me most in the waiver process was that states 
didn't just run away from the one-size-fits-all approach to 
NCLB, they ran toward a system that strikes a balance between 
flexibility and accountability. We should learn from this 
experimentation when we revise ESEA.
    It does not make sense to ask states to reinvent the wheel 
when it is not necessary. That said, I have some deep concerns 
about those waivers and their implementation.
    Many of those concerns stem from the states wanting to 
adopt policies that reach back to pre-No Child Left Behind, 
such as proposing to diminish or to not have subgroup 
accountability. I know that many of my colleagues on both sides 
of the aisle share my concerns.
    The only way to address these deep concerns is to engage in 
a true bipartisan rewrite of the law. That is the kind of bill 
that President Obama will sign.
    We all agree, Democrats, Republicans, and the 
administration, that the federal role should shift in this 
reauthorization. States, districts, and schools should be able 
to manage their schools in a way that current law doesn't 
allow.
    The federal government will never actually improve a school 
nor should it try; however, we must continue to support the 
simple idea that low-performing schools should be identified 
and required to improve. We cannot afford to scale back our 
national and federal commitment to ensure that all students are 
served well by their schools.
    As such, Democrats believe we should set high expectations 
for students and schools. Specifically, federal policy should
    1) require states to set high standards for all students 
ensuring that they graduate ready to succeed in college and in 
the workforce,
    2) require states to set goals and targets every year so 
that schools get better every year and students make continuous 
progress,
    3) ensure states and districts take action when students 
are not making that progress and schools are stuck in failure, 
and
    4) target resources and supports to those schools that need 
to improve while giving them the flexibility to figure out how 
best to accomplish that. I believe we must reengage as a 
federal partner both on policy and on funding.
    The reauthorization of ESEA provides us that opportunity. 
We must not turn our back on our civil rights and moral 
obligation to our nation's children.
    I want to again thank all the witnesses for appearing 
today, and I certainly look forward to their testimony. I spent 
a great deal of time reading it last night. I want to hear it 
here in the committee room.
    Thank you very much.
    [The statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Senior Democratic Member, 
                Committee on Education and the Workforce

    Thank you, Chairman Kline. This hearing comes at an exciting time 
in education.
    States, districts and schools are making large scale transitions--
transitions to new standards, new assessments, new accountability and 
school improvement systems, and teacher evaluations.
    As these transitions occur, we're seeing innovations at all levels:
    <bullet> Many districts are looking to technology to help solve 
chronic education challenges--from getting high quality teachers into 
hard to staff schools to the use of new communication devices for 
students with disabilities.
    <bullet> Teachers in my home state of California are taking on 
Common Core as their charge and responsibility. They are embracing the 
new standards and assessments as their own and supporting and preparing 
themselves.
    <bullet> Districts in many parts of the country are taking a new 
approach to school management, a portfolio approach, to ensure that 
there are education options that meet all student needs.
    <bullet> Schools are increasingly tapping community partners to 
ensure students are receiving the wrap-around services and extra time 
we know is critical to academic success.
    <bullet> Districts in California are taking a new approach to 
school improvement and are partnering with their peers for school 
review and support in turnaround.
    However, in all of this great movement forward I fear that states, 
districts, schools, teachers and parents have lost their federal 
partner. Between Congressional inaction on ESEA and sequestration, we 
have created an uncertain environment. And we are not offering people 
support that could help them succeed in a time of massive 
transformation.
    And yet, I still believe we have an incredible opportunity to take 
schools into the future with a proper reauthorization of ESEA. Given 
what we are seeing in states and districts, now is not the time to go 
backwards in our federal policy.
    Eleven years ago, the No Child Left Behind Act shined a light in 
our classrooms.
    Prior to NCLB only a handful of states publically disclosed student 
achievement broken down by gender, ethnicity, disability, income, or 
English proficiency.
    Even fewer states took action on that information. These students 
were invisible. They were struggling in classrooms across the country, 
and nobody knew. Worse, nobody had to do anything to fix it.
    But thanks to federal accountability provisions, schools could no 
longer keep parents and the public in the dark. And schools could no 
longer exempt significant portions of their students from 
accountability systems.
    We have learned a lot in the last 11 years--many things we wouldn't 
be discussing if it weren't for federal involvement. Most importantly, 
the evidence is now irrefutable that all kids can learn and succeed 
despite their zip code or income.
    Yet, as an author of NCLB and someone who has listened to experts 
and communities across the nation about its pros and cons, I recognize 
that we need to modernize the law with fundamental changes.
    Last year, the administration opened up a process for states to 
apply for waivers from parts of NCLB. As of now the Department of 
Education has approved waivers in 35 states with 11 applications still 
pending. Then and now I would prefer a full re-write of ESEA. However, 
I understand why the Administration took this action.
    What excited me most in the waiver process was that states didn't 
just run away from the one-size fits all approach of NCLB. They ran 
towards a system that strikes a balance between flexibility and 
accountability. We should learn from this experimentation when we 
revise ESEA. It does not make sense to ask states to reinvent the wheel 
when it's not necessary.
    That said, I have some deep concerns about some of those waivers 
and their implementation. Many of those concerns stem from states 
wanting to adopt policies that reach back to a pre-NCLB time, such as 
proposing to diminish or not have subgroup accountability.
    I know many of my colleagues on both sides of the aisle share my 
concerns. The only way to address these deep concerns is to engage in a 
true bipartisan rewrite of the law. That is the kind of bill that 
President Obama will sign.
    We all agree--Democrats, Republicans and the Administration--that 
the federal role should shift in this reauthorization. States, 
districts and schools should be able to manage their schools in a way 
that current law doesn't allow.
    The federal government will never actually improve a school and nor 
should it try. However, we must continue to support the simple idea 
that low-performing schools should be identified and required to 
improve.
    We cannot afford to scale back our national and federal commitment 
to ensure all students are served well by their schools.
    As such, Democrats believe we should set high expectations for 
students and schools. Specifically, federal policy should:
    <bullet> Require states to set high standards for all students, 
ensuring they graduate ready to succeed in college and the workforce;
    <bullet> Require states to set goals and targets every year so that 
schools get better every year and students make continual progress;
    <bullet> Ensure states and districts take action when students are 
not making progress and schools are stuck in failure; and
    <bullet> Target resources and supports to those schools that need 
to improve while giving them flexibility to figure out how best to 
accomplish that.
    I believe we must re-engage as a federal partner both on policy and 
in funding. The reauthorization of ESEA provides us that opportunity. 
We must not turn our backs on our civil rights and moral obligation to 
our nation's children.
    I thank all the witnesses for appearing today. I look forward to 
your testimony.
    I yield back.
                                 ______
                                 
    Chairman Kline. I thank the gentleman. Pursuant to 
Committee Rule 7(c), all committee members will be permitted to 
submit written statements to be included in the permanent 
hearing record.
    Without objection, the hearing record will remain open for 
14 days to allow statements, questions for the record and other 
extraneous material referenced during the hearing to be 
submitted in the official hearing record.
    Well, now it is my pleasure to introduce this distinguished 
panel of witnesses. Mr. John White is the state superintendent 
of education for Louisiana. He has got an incredible story to 
tell.
    We have got to take an extra moment for Dr. Chris 
Richardson. He is completing his 9th year as superintendent of 
the Northfield Public Schools found in the 2nd Congressional 
District of Minnesota. In 2012 he was selected the Minnesota 
Superintendent of the Year, and I have had the pleasure and the 
benefit of hours and hours of discussion with Dr. Richardson 
about No Child Left Behind and reauthorization, and I am 
delighted that he is here to share that with you today.
    Mr. Miller. Yes, it takes a long time to talk to him. 
[Laughter.]
    Chairman Kline. Mr. Eric Gordon is the chief executive 
officer of the Cleveland Metropolitan School District. Welcome.
    And Mr. Matthew Given is the chief development officer and 
executive vice president at EdisonLearning.
    Welcome, all of you.
    Before I recognize each of you to provide your testimony, 
let me again briefly explain our lighting system. You will each 
have 5 minutes to present your testimony. When you begin, the 
light in front of you will turn green. When 1 minute is left, 
the light will turn yellow, when your time has expired, the 
light will turn red.
    At that point, I'd ask you to wrap up your remarks as best 
you are able, and after everyone has testified, members will 
each have 5 minutes to ask questions of the panel, and as I 
have explained to other witnesses, I am loath to drop the gavel 
on a witness when they are speaking. It is not impossible. I am 
less reluctant to drop the gavel on my colleagues. I would now 
like to recognize Mr. White for 5 minutes.
    Sir, you are recognized.

  STATEMENT OF JOHN WHITE, STATE SUPERINTENDENT OF EDUCATION, 
               LOUISIANA DEPARTMENT OF EDUCATION

    Mr. White. Chairman Kline, Representative Miller, and 
members of the committee, I thank you very much for the 
opportunity to present today.
    Our state's story will reflect well on the legacy of No 
Child Left Behind, but there is much that needs to be changed. 
A strong ESEA reauthorization would benefit our nation's 
schools and children greatly.
    I will base my comments on our experiences in Louisiana and 
in the city of New Orleans particularly. That city's school 
system ranked lowest in our state for years and was almost 
taken over entirely by the state-run Recovery School District 6 
years ago; it now graduates students from high school at a 
higher rate than our state average and among African-Americans 
at a higher rate than the national average.
    That success starts with a blend of four policies. One, 
empowered school leadership where schools receive 98 cents on 
the dollar of state and local revenue. Two, uncompromising 
accountability. Three, citywide parental choice. Four, long-
term investment in a pipeline of talented principals and 
teachers.
    Together, these principles form a simple framework. Set a 
goal, let the educators figure out how to achieve it, give 
parents a choice as to where to send children, and stock the 
system with strong educators.
    It is worth saying that the New Orleans model was predated 
by NCLB's push to identify low performing schools and to 
improve them, but it is also worth saying that the simplicity 
of the New Orleans model exists in spite of the federal role 
and its complexities; not because of it.
    Therein lies the critical challenge to a quarterly 
reauthorization of ESEA. Congress must promulgate a framework 
of accountability, choice, and high quality teaching while 
keeping its parameters simple for schools whose greatest 
challenge day-to-day is achieving coherence over confusion.
    The vehicle for implementing this framework should be one 
simple set of parameters from the federal government and one 
plan from each state. It is time we acknowledge that the 
fragmented federal structure that gives each title and each 
grant its own bureaucracy mirrored in every state agency and 
school district central office in America is among our greatest 
barriers to progress.
    In Louisiana, we have condensed 23 federal grants into one 
common application for federal dollars from school systems. We 
need more movement in this direction. Congress should 
streamline grant requirements. States should propose how to 
distribute federal dollars to align with their own funding 
formulas. States that cannot achieve the performance goals 
entailed in their plans should receive fewer funds.
    These federal parameters should call both for state 
accountability systems that commit to results--especially among 
historically disadvantaged students--and accountability systems 
that allow states to innovate on the measures themselves.
    In Louisiana, our accountability system is evolving to 
include not just grade level proficiency and graduation rates 
but also real world college and career readiness attainment 
measures such as advanced placement results, dual enrollment 
credit, and post-secondary employment attainment.
    Our system is also evolving towards greater use of 
individual student progress as a way of measuring school 
performance. Federal parameters should compel states to design 
systems in line with these principles but states should have 
freedom to craft measures.
    States should identify schools that persistently 
underachieve or do not show progress. While the federal 
formulas for determining these lists have proven bewildering 
and should be ended, this assurance remains one of NCLB's most 
important legacies.
    At the same time, the legislation's regime of prescribed 
corrective action did more to generate state and district 
central office jobs than it did to transform struggling 
schools.
    In New Orleans and in Louisiana, rather than prescribing a 
plan for turning around every struggling school, we planned for 
every child in a struggling school to have immediate access to 
a high-quality school seat by using pre-existing school options 
more efficiently, opening up new school options, and replacing 
failed options.
    Each state should develop a plan that guarantees a high-
quality alternative for every student attending a failing 
school, and this plan should include any option that has a 
demonstrated record of student achievement, be it traditional 
public, charter public, or nonpublic.
    Furthermore, if states are serious about improvement in the 
most persistently low-performing schools they will establish a 
point at which the status quo school system loses the privilege 
of educating those schools' students.
    Our state's Recovery School District takes struggling 
schools under an alternate governance umbrella allowing either 
the state or a new organization to operate the school.
    In New Orleans, this model has yielded an increase in 
literacy and math scores among students in the schools from 23 
percent proficiency 6 years ago to 51 percent today.
    Finally, if we are going to get the question of educator 
talent right, we have got to get beyond spending all federal 
dollars on short-term activities and outcomes.
    New Orleans would not be what it is today had government 
and philanthropists not made long run investments in 
organizations like Teach For America, New Schools for New 
Orleans, Relay Graduate School of Education, Building Excellent 
Schools, and Leading Educators, as well as the nation's best 
pipeline of charter school management organizations, ready to 
turn around struggling schools. Federal dollars can help states 
to scale what works, and state's plans should reflect this.
    A strong ESEA reauthorization will be uncompromising in its 
commitment to accountability but modest in its view of the 
federal role and its potential to create confusion over 
coherence.
    I hope our experience in Louisiana has proved helpful to 
your view of the law, and I thank you humbly for the 
opportunity to share it this morning.
    Thank you, Mr. Chairman.
    [The statement of Mr. White follows:]

           Prepared Statement of John White, Louisiana State
                      Superintendent of Education

    Chairman Kline, Representative Miller, members of the committee, I 
thank you for the opportunity to present today to the House Education 
and the Workforce Committee some thoughts on the Elementary and 
Secondary Education Act (ESEA) and the extraordinary opportunity 
Congress has in considering its re-authorization. Our state's story 
will reflect well on many provisions entailed within No Child Left 
Behind (NCLB). But there is much that needs to be changed. A strong 
reauthorization would benefit our nation's schools and children 
greatly.
    I will base much of what I have to say on our experiences in 
Louisiana, and in the city of New Orleans most notably. That city's 
system of autonomous public and private schools, ranked lowest in our 
state for years, and taken over almost entirely by the state-run 
Recovery School District six years ago, now graduates students from 
high school at a higher rate than our state average and, among African-
Americans, at a higher rate than the national average.
    That success starts with a simple blend of four policies that 
allows for coherent planning at each school: 1.) Empowered charter 
school leadership and governance, where schools receive 98 cents for 
every dollar of state and local revenue; 2.) Uncompromising 
accountability based on long-term results; 3.) Citywide parental choice 
of public and private schools, facilitated by government; 4.) Long-term 
investments in a pipeline of talented principals and teachers.
    Together, these principles form a simple framework for improvement: 
set a goal, let the educators figure out how to achieve it, give 
parents a choice of where to send children and resources, and stock the 
system with strong teachers and leaders.
    A particular moment comes to mind when illustrating the power of 
these principles. A couple years ago I visited ASPIRE Academy, an 
elementary school in the 9th Ward of New Orleans, a neighborhood 
particularly devastated by Hurricane Katrina. The school, then in its 
second year, was founded by a former administrator of a KIPP charter 
school and had replaced a long-struggling traditional district school. 
Discussing his plans for the future, he told me that if the school was 
going to meet its four-year performance targets--an achievement 
required for the school to remain in our system--he knew that he needed 
more time with his students, and he knew that his staff would have to 
provide each child more than just academic classroom instruction.
    ``We are going early morning to late evening,'' he told me. ``Three 
meals a day, full art and music curriculum for every student, and two 
hours more learning than we are getting today.''
    Surprised, given the young age of the students, I asked him why he 
thought the school should go in that direction.
    ``First, my parents are asking for it. My kids aren't getting it at 
home. It's what's necessary to get them on track.''
    He continued: ``And the reason we are able to do it is that the 
central office doesn't run the school; the educators run the school, 
and the parents chose this school. A grant manager downtown doesn't 
tell us how to spend our children's money. We have our school's plan 
for our school's kids, and all of our resources are focused on that.''
    It is worth saying that the New Orleans model of empowered, 
accountable schools was predated by NCLB's push to identify low-
performing schools and to improve them. This is an important legacy of 
that law.
    But it is also worth saying that the simplicity of the New Orleans 
model--one where educators and parents rather than bureaucrats make 
choices on behalf of the kids they know and serve--exists in spite of 
the federal role and its complexities, not because of it.
    Therein lies the critical challenge to a quality reauthorization of 
ESEA: Congress must promulgate a framework of accountability, choice, 
and high quality teaching while keeping its parameters simple for 
leaders of states, districts, and schools, whose greatest challenge day 
to day is achieving coherent planning around the needs of students.
Empowered Leadership
    The vehicle for implementing this framework should be one simple 
set of parameters from the federal government and one plan from each 
state. It is time we acknowledge that the fragmented federal structure 
that gives each title and grant its own bureaucracy, mirrored in every 
state agency and district central office in America, is among our 
greatest barriers to progress. It pulls educators in different 
directions when the great struggle of a school is to get everybody 
working together.
    In Louisiana, we have condensed 26 federal grants into one common 
application for dollars from school districts. Our districts are using 
new flexibilities, allowing them to spend on critical services central 
to their plans for change.
    We need more movement in this direction. Progress starts with 
allowing educators to think for themselves and to innovate in response 
to accountability. Congress should streamline grant requirements. 
States should propose how to distribute federal dollars in ways that 
align with their own funding formulas.
    States that won't work within the federal parameters should not 
take federal dollars. States that cannot achieve the performance goals 
entailed in their plans should receive fewer funds.
    We must dispense with reports that go unused, incessant grant 
applications, contradictory planning processes, and inconsistent 
spending requirements. That starts with simplifying the federal 
framework into one simple set of parameters and one simple plan from 
each state.
Accountability for Results
    The federal parameters should both call for state accountability 
systems that commit to results, especially among historically 
disadvantaged students, and allow states to innovate on measures 
themselves. In Louisiana, our accountability system is evolving to 
include not just grade level proficiency and graduation rates, but also 
real-world college and career attainment measures such as Advanced 
Placement results, dual enrollment credit, and post-secondary 
employment attainment. Our system is also evolving toward greater 
incorporation of individual student progress as a way of measuring 
school and district performance. Federal parameters should compel 
states to design systems in line with these principles, but states 
should have freedom to craft measures.
    The ultimate promise on which states should deliver is student 
achievement, and federal funds awarded should in part be predicated on 
demonstrated outcomes. To that end, states should also articulate long-
term performance objectives and annual benchmarks along the way.
    States are policy laboratories, and we should not limit continued 
innovation in accountability systems. The federal government is right 
to define parameters for strong accountability tied to outcomes, but 
Congress should be wary of over-prescribing the measures entailed.
Consequences: Parental Choice
    States should identify schools that persistently under-achieve or 
do not show progress. While the federal formulas for determining these 
lists have proven bewildering and should be ended, this assurance 
remains one of NCLB's most important legacies.
    At the same time, the legislation's regime of prescribed corrective 
action did more to generate state and district central office jobs than 
it did to transform struggling schools. States should create plans that 
guarantee greater opportunity for students trapped in low-performing 
schools rather than reams of pro forma plans approved by Washington.
    In New Orleans and in Louisiana, when we talk about low-performing 
schools, we don't start with the question of how to turn around every 
school. We start with the question of ensuring a great school seat for 
every child. We plan on that basis, using pre-existing school options 
more efficiently, opening up new school options, and replacing failed 
options, with the goal of every child having immediate access to a 
high-quality school seat.
    Each state should develop a plan that guarantees a high quality, 
viable alternative for every student attending a failing school. This 
plan should include any option that has demonstrated a record of 
student achievement: traditional public, charter public, non-public, or 
otherwise. In New Orleans, students enroll in public schools and in 
publicly funded private schools through the same process. This year, a 
full 20 percent of parents seeking a new school listed both private 
schools and public schools on their applications.
    And where states propose to convert currently struggling schools 
into better schools using federal dollars, they should be required to 
change the governance of the schools in question. Prescribed corrective 
action from Washington that maintains current status quo governance 
does not work. If states are serious about improvement in the most 
persistently low-performing schools, they will establish a point at 
which the status quo school system loses the privilege of educating 
those schools' students and others are invited in to make change 
happen.
    Our state's Recovery School District takes struggling schools under 
an alternate governance umbrella, allowing either the state or a new 
organization--such as a charter school management organization--to 
operate the school without interference. In New Orleans, this has 
yielded an increase in literacy and math scores among student in those 
schools from 23 percent proficiency six years ago to 51 percent today.
Teacher and Principal Pipeline
    Requiring states to report school-level outcomes spurred a focus on 
schools that states and districts had forgotten about. States should 
likewise report and improve workforce measures. But the measures should 
speak more holistically to the quality of the workforce than do teacher 
evaluation outcomes alone. States should, for example, report entry 
requirements for teacher preparation programs and measurable outcomes 
of those programs, along with the results achieved by their graduates.
    Finally, if we are going to get the question of educator talent 
right, we have to get beyond spending all federal dollars on short-term 
activities and outcomes. If we are serious about achieving educator 
effectiveness, states should use a percentage of federal dollars for 
long-term investments in scaling accountable, effective teacher and 
principal preparation programs, including effective charter school 
management organizations. New Orleans would not be what it is today had 
government and philanthropists not made long-term investments in 
organizations like Teach For America, New Schools for New Orleans, 
Relay Graduate School of Education, Building Excellent Schools, and 
Leading Educators, as well as the nation's best pipeline of charter 
school management organizations, ready to turn around struggling 
schools. Federal dollars can help states to scale what works, and 
state's plans should reflect this.
    Educating children, especially the most disadvantaged, is an 
endlessly complex activity. It requires a relentless focus on 
measurable outcomes, coupled with the dexterity to be creative and 
adjust course. A strong ESEA reauthorization will be uncompromising in 
its commitment to accountability but humble in its view of the federal 
role and its potential to create confusion more than coherence. I hope 
our experience in Louisiana has proved helpful to your view of the law, 
and I thank you humbly for the opportunity to share it this morning.
                                 ______
                                 
    Chairman Kline. Thank you, Mr. White.
    Dr. Richardson, you are recognized for 5 minutes.

   STATEMENT OF CHRIS RICHARDSON, SUPERINTENDENT OF SCHOOLS, 
                   NORTHFIELD PUBLIC SCHOOLS

    Mr. Richardson. Chairman Kline, members of the committee, 
school districts across the country have seen some major 
positive impacts in the implementation of No Child Left Behind.
    First, the focus on achievement data moved districts from 
implementing changes based on whether it seemed like the right 
thing to do, to doing it and looking at how students are 
performing and making changes based on data.
    Second, schools moved from examining only average scores of 
all groups combined to disaggregating data, looking closely at 
students in each subgroup, and responding to the needs of all 
subgroups.
    Finally, the focus on each subgroup identified the 
achievement gap that exists in many school districts between 
white students and students of color, those in poverty, with 
disabilities, and English learners.
    At the same time, NCLB is deeply flawed.
    First, the focus on reading and mathematics not only fails 
to consider the importance of things like science, social 
studies, the arts, and vocational education, but it also 
totally ignores 21st century workforce skills.
    Second, the reliance on the test given at a single point in 
time in the year as the sole measure of a student's proficiency 
or growth is inherently unfair.
    Finally, the draconian sanctions placed on schools 
identified as ``in need of improvement'' financially punishes 
schools and students that face the greatest challenges.
    So what needs to change?
    First, Congress needs to reauthorize the ESEA as soon as 
possible, providing relief for the broken components of current 
law. While the waiver process has spared some from the 
unworkable sanctions, it leaves this country without consistent 
action.
    Second, the reauthorization must recalibrate the federal 
and state roles in education. Federal investment in public 
education represents, on average, just 10 percent of total 
district expenditures. Reauthorization should ensure that 
federal policy establishes a proportional role.
    Second, the federal government must set broad parameters 
around testing, allowing multiple measures determined at the 
state and local level with clear expectations for 
disaggregation of data, identification of achievement gaps, 
district and school improvement plans, professional 
development, and communication.
    Third, each state in collaboration with districts should 
have the authority to implement and individualize these 
parameters based on their needs, determine the suite of 
assessment tools that is appropriate, and establish the 
structure for district and school improvement.
    Finally, each state and district should have the 
flexibility to use federal funding in ways that positively 
impact student success allowing those folks that are closest to 
the students to address their unique needs.
    I would like to share three quick stories about Northfield 
that I believe mirror how districts across the nation are using 
data to creatively address student needs.
    First, every Northfield teacher is part of a grade level or 
subject area Professional Learning Community, or PLC. Their 
responsibility is to analyze data about their students and 
address their needs.
    The work of PLCs resulted in implementation of Response to 
Intervention or RTI in every elementary building in our 
district. Each PLC team combs data, identifies students not on 
track, determines appropriate interventions, implements those 
interventions.
    Many students are back on track within 6 weeks. This 
significantly reduced referrals for special education with only 
20 initial referrals this year in comparison to 80 or 90 
referrals for special education in each of the last 5 years. 
More importantly, students have the skills to continue to 
access the regular curriculum at grade level.
    A second example, a high school PLC's team's longitudinal 
data showed failing classes as a freshman increased the chances 
that students would either not graduate on time or would drop 
out. The PLC developed the Academy with staff who taught a 
smaller number of struggling students for half the day.
    Academy staff monitored performance and supported students 
during the day and after school providing follow-up and 
individual instruction. After implementation, the percentage of 
freshmen failing dropped from 25 percent down to 8 percent and 
our graduation rate went up to 96 percent.
    The third example, less than a decade ago, our Latino 
immigrant students in Northfield who make up about 12 percent 
of our population were struggling with a graduation rate of 36 
percent. The grad rate of white students was 90 percent.
    Few Latino students attended post-secondary activities. 
They created a program called TORCH; Tackling Obstacles Raising 
College Hopes, to help support and provide career exploration 
post-secondary opportunities. Today, our graduation rate for 
Latinos is over 90 percent. We have got an 1100 percent 
increase in TORCH graduates accessing post-secondary ed.
    I think it is important to realize as we go forward that 
not only do we need to address the academic needs but we also 
need to address the fact that teachers need the professional 
development and also that kids and families need to be 
connected with if we are going to ensure success.
    Thank you.
    [The statement of Dr. Richardson follows:]

   Prepared Statement of Dr. L. Chris Richardson, Superintendent of 
           Schools, Northfield Public Schools, Northfield, MN

    Chairman Kline and Members of the Committee, my name is Dr. Chris 
Richardson, superintendent of the Northfield Public Schools in 
Northfield, Minnesota. Over my forty-three year career in education, 
the first ten years were spent as a middle school teacher and 
instructional team leader, secondary principal, curriculum director, 
and for the last thirty-three years as superintendent of six Iowa, 
Nebraska, and Minnesota school districts. In 2012, I was selected as 
the Minnesota Superintendent of the Year.
    My teaching and administrative experiences have been in diverse 
districts with enrollments ranging from 250 to 22,000 students K-12. I 
am currently completing my ninth year as superintendent of the 
Northfield Public Schools after leading the Osseo Area schools from 
1997-2004. Northfield Public Schools has approximately 3,900 students 
K-12 of which approximately 83% are White, 12% are Hispanic and 5% 
other students of color. English learners comprise 8% of our students, 
13% are identified for special education services and 25% qualify for 
free or reduced price meals.
    During my career as a superintendent, I have led districts in 
responding to ``A Nation at Risk'' in the 80's, ``Goals 2000'' in the 
90's and ``No Child Left Behind'' or NCLB during the last decade. In 
the last few years, districts in Minnesota and a number of other states 
have been operating under the waiver provisions granted by the 
Department of Education.
    School districts across Minnesota and the country have seen some 
major positive impacts in the implementation of No Child Left Behind, 
the current ESEA act.
    <bullet> First, the focus on student achievement data has moved 
school districts from implementing programs or making changes based on 
whether it seemed like the right thing to do, to looking in detail at 
how students are performing and making changes and modifications based 
on what that data shows.
    <bullet> Second, schools have moved from examining and reporting 
only the average scores of all groups combined to disaggregating the 
data so that we look closely at how students in each subgroup are 
performing and respond with specific supports to meet the needs of all 
students.
    <bullet> Finally, the focus on disaggregated data for each subgroup 
has clearly identified the achievement gap that exists in many school 
districts between our White students and our students of color, 
students in poverty, students with disabilities, and students who are 
English learners.
    At the same time, NCLB is deeply flawed.
    <bullet> First, the focus on reading and mathematics not only fails 
to consider the importance of science, social studies, the arts, health 
and physical education and vocational technical education, but totally 
ignores the development of 21st century workforce skills needed by our 
students.
    <bullet> Second, the reliance on a test given at a single point in 
time as the sole measure of a student's class, school building, or 
district's proficiency or growth is inherently unfair. It is the 
equivalent of judging the worth of an elected official based on a 
single vote.
    <bullet> Finally, the draconian sanctions placed on schools and 
districts that are identified as ``in need of improvement'' financially 
punishes those schools and students that face the greatest challenges.
    So what needs to change?
    <bullet> First, Congress needs to reauthorize the Elementary and 
Secondary Education Act as soon as possible, providing all schools and 
students with relief from the broken, outdated components of current 
law. While the waiver process has spared some states like Minnesota and 
school districts like Northfield from the unworkable sanctions embodied 
in NCLB, it leaves this country without a consistent focus and 
direction in education at a time when it is much needed.
    <bullet> Second, the reauthorization must reestablish and 
recalibrate the federal and state roles in education. Federal 
investment in public education represents, on average, just ten percent 
of total district expenditures. As such, any reauthorization should 
ensure that federal policy establishes, at most, a proportional role, 
to avoid the proverbial ``tail wagging the dog''. The federal 
government must set broad parameters around testing and measurement 
allowing multiple measures of proficiency and growth determined at the 
state and local level. Additional federal parameters around 
disaggregation of data and identification of achievement gaps are 
needed as well as the need for district and school improvement plans, 
professional development and requirements for communication with 
constituents. Each state in collaboration with local districts should 
have the authority and responsibility to implement and individualize 
these parameters based on their identified needs. Each state should be 
able to determine the suite of assessment tools that best measure 
proficiency, growth and college and career readiness. Each state with 
meaningful involvement of local districts should be able to establish 
structures for school improvement plans, and district goal setting of 
performance targets, achievement gap reduction and student growth.
    <bullet> Finally, each state and district should have the 
flexibility to use federal funding in ways that provide the best 
opportunity to positively impact student success. District flexibility 
allows those closest to the students to address unique student needs in 
ways that are most effective for those students.
    I would like to share three brief stories about what we are doing 
in the Northfield Public Schools that mirror the efforts that I believe 
are occurring across this country. These efforts reflect how local 
districts are using data to creatively address student needs and 
increase student success. They also demonstrate the power of giving 
local districts and schools the opportunity to develop and implement 
plans embraced by local teachers and staff that change the lives of 
students.
    The Northfield Public Schools has been implementing professional 
learning communities (PLCs) for several years. Every teacher in every 
building is part of a grade level or subject area PLC which meets for 
one hour every week during the school day. Each PLC is responsible for 
analyzing the data about the students they serve, and developing and 
implementing goals and instructional strategies for addressing student 
needs.
    The work of PLCs has resulted in the implementation of Response to 
Intervention or (RtI) in every elementary building. Each building PLC 
team, with the help of an RtI coach, combs through the data about 
students, identifies students who are not on track to succeed, 
determines scientifically based interventions, and implements those 
interventions with fidelity over multiple weeks. Many of the students 
are back on track in six weeks and others receive additional 
interventions to support their learning. The bottom line is that this 
process has significantly reduced the number of elementary referrals to 
special education in all buildings with only 20 initial referrals this 
year in comparison to 80-90 referrals on average in each of the last 
five years. More importantly, it provides these students with the 
skills to continue to access the regular curriculum at grade level, so 
they don't fall behind.
    At the high school level, a PLC team determined that a number of 
incoming ninth graders were struggling academically and therefore at 
risk of failing one or more classes as freshmen. Longitudinal data told 
them that failing one or more classes as a freshman significantly 
increased the chances that these students would not graduate on time or 
would drop out later in high school. The PLC developed the Academy and 
selected a group of struggling students. Academy teaching staff worked 
with a smaller number of students while other teachers took on larger 
numbers of students who were not at risk. The struggling students were 
taught for half of their day by a team of teachers who carefully 
monitored their performance and supported them both during the day and 
after school with a seminar providing follow up, tutoring and 
individual instruction in addition to their regular classes. After 
several years of implementation, the percentage of freshmen failing one 
or more class has dropped from almost 25% down to less than 8% and our 
four year graduation rate now exceeds 96%.
    Less than a decade ago, Latino immigrant students in Northfield who 
make up 12% of the student population were struggling with a graduation 
rate of only 36% while the graduation rate of our White students was 
over 90%. Few Latino students attended a postsecondary program. Staff 
members worked with the community to develop a program to address the 
achievement gap and to support Latino students and their families. 
Working collaboratively, we implemented the Northfield Tackling 
Obstacles and Raising College Hopes (TORCH) initiative to provide 
academic and social support, mentoring, career exploration, and 
connections with post-secondary education opportunities for Latino 
youth in grades 9-12.
    The first goal of TORCH is to improve academic success and school/
community connectedness through individual academic counseling; one-on-
one mentoring; transitions to more academically-rigorous classes; 
bridging the Digital Divide; youth service; student leadership 
opportunities; and regular family check-in's. The second goal of TORCH 
is to increase access and participation in postsecondary education 
through career/college exploration and workshops; summer enrichment 
activities that improve academic skills; college visitations; ACT and 
Accuplacer prep; assistance with college/financial aid applications; 
and communication with graduates.
    Over the past six and a half years, TORCH has seen remarkable 
results. Today, the Latino graduation rate in Northfield has climbed to 
over 90%. There has been an 1100% increase in TORCH graduates who have 
accessed postsecondary education programs and earned bachelor's 
degrees, associate's degrees, and postsecondary certificates. Based on 
our success, TORCH expanded in 2007 to serve all Northfield youth in 
grades 9-12 who are racial minorities, low-income, and/or potential 
first-generation college attendees. Many of our Latino students fit 
into all of these categories. High school success also required 
stronger academic and social supports for TORCH-eligible youth in 
middle school so TORCH expanded to middle school students in grades 6-8 
providing academic and social support and an even stronger foundation 
for future success.
    The bottom line is that teachers and administrators in Northfield 
and districts across Minnesota and the nation have continued to step up 
to address the academic needs of the students we serve, just as we did 
before NCLB was implemented. We also know that the power of 
professional learning communities for teachers and personally 
connecting with kids and families is just as important as academic 
instruction in ensuring student success. We understand the political 
and funding issues you face and sincerely hope you understand the 
complexity of the education effort we undertake every day with every 
student.
    A reauthorized ESEA needs to provide the broad federal parameters 
that maintain the focus on continuing to use the data we have about 
children to increase student proficiency and reduce the achievement 
gap. At the same time, it needs to provide the assessment, programming 
and funding flexibility to each state and school district necessary to 
support the professional expertise--and unleash the creativity of--our 
educators, the teachers and administrators, working in our classrooms 
and schools every day to make instructionally sound decisions driven by 
a never-ending desire to improve student learning. Please work to find 
that compromise. Our children and our future depend on it.
                                 ______
                                 
    Chairman Kline. Thank you, Chris.
    Mr. Gordon, you are recognized for 5 minutes.

STATEMENT OF ERIC S. GORDON, CHIEF EXECUTIVE OFFICER, CLEVELAND 
                  METROPOLITAN SCHOOL DISTRICT

    Mr. Gordon. Thank you.
    Good Morning Chairman Kline, Ranking Member Miller, and 
members of the committee. Thank you for the opportunity to 
testify on accountability and school improvement initiatives in 
our nation's public schools.
    I want also to recognize Congresswoman Marcia Fudge, known 
well in Cleveland for her advocacy of every child's right to a 
quality education.
    The Cleveland Metropolitan School District is the second 
largest school district in Ohio, where more than 40,000 
students and their families count on us to provide the best 
education possible for them.
    Our system is particularly challenged by having a 47 
percent census poverty rate, the second highest among the 
nation's Great City Schools, and a free and reduced price lunch 
rate of 100 percent, meaning all students are served free 
breakfast and lunch. We further serve 22 percent special needs 
children and 6 percent for whom English is a second language.
    In Cleveland, we talk often about a Nation at Risk. Prior 
to my appointment as CEO, I served as the chief academic 
officer and was one of the main architects of a transformation 
plan designed to move the district forward.
    However, that plan was quickly mired in contractual and 
legal barriers and that led me, our Democratic mayor, and 
ultimately our Republican governor to approach both sides of 
the Ohio House and Senate and seek legislation that helped us 
create the Cleveland Plan, which has since drawn national 
attention for a collaborative approach that I believe provides 
a frame for how we can think about the role of federal policy 
as well.
    Even with some of the toughest challenges in the nation, 
Cleveland has embraced accountability, as demonstrated by 
volunteering for the local Trial Urban NAEP testing initiative 
with the high academic standards set by the independent 
National Assessment Governing Board.
    It should not be surprising, therefore, that I support 
requiring Title I-funded schools to set academic performance 
targets to anchor and guide their schoolwide and targeted-
assistance plans.
    And, while consensus on a precise trajectory for progress 
for each such school may not be attainable, continuing growth 
in these highest needs schools should be the pivotal element 
particularly with so many students performing below proficiency 
and many of the low achieving student groups also performing 
below their statewide average peers.
    Moreover, NAEP has demonstrated that far greater numbers of 
students are not proficient when tested against higher academic 
standards similar to the Common Core standards adopted by many 
states including Ohio.
    And when we say accountability in Cleveland we mean it and 
we have done it--done so by putting our money where our mouth 
is, where my colleagues and I have asked our voters to support 
a $15 million levy that they cannot afford but holding us 
accountable by taking it away in 4 years if we are unable to 
succeed.
    Some of the federal statutory and regulatory barriers to 
school reform have been removed through the flexibility 
provided to Ohio and other states under the U.S. Department of 
Education's waivers.
    With a shared commitment and some--excuse me--from which we 
can learn. Otherwise, under the decade old No Child Left 
Behind, 100 percent proficiency requirements would have 
overwhelmed the capacity of our system, requiring improvement 
plans for nearly every school.
    One of my strongest appeals is for legislation that allows 
a reform minded-leader and school system like Cleveland to 
focus and target our time, people, and resources to improve our 
schools rather than using a one-size-fits-all model.
    With the shared commitment and additional flexibility, 
Cleveland schools can model the most visionary and successful 
reform strategies in the country and replace the one-size-fits-
all reform plans of the past with a portfolio school model that 
provides results in other cities around our nation allowing for 
autonomy at our school level in exchange for accountability, 
providing choices for families, increasing the ability to hire 
and place staff at the school level, and driving resources 
based on student-weighted funding needs as opposed to district-
wide enrollment numbers.
    Without federal support for disadvantaged students and 
accompanying accountability expectations in ESEA, districts 
like Cleveland would have truly been left behind.
    I would encourage an increased federal investment in ESEA 
to help underwrite the types of reforms that Cleveland has 
initiated and the movement toward world-class academics for all 
students.
    The traditional provisions of federal law that protect the 
integrity and impact of federal funding such as maintenance of 
effort, supplement not supplant, and others continue to be 
important. Yet, there is still need for some additional 
flexibility to allow superintendents, like myself, to better 
tackle academic and capacity problems in our most difficult 
Title I schools that are constrained by rigid requirements and 
unnecessary paperwork.
    I would challenge, however, the assumption that delegating 
those requirements to the states is the simple and best answer 
to resolving implementation problems because of the state 
requirements that I struggle with daily as the superintendent.
    I am also concerned about state actions to avoid NCLB 
accountability, lowering state academic standards and 
proficiency cut scores, or establishing super subgroups that 
allow us to hide individual subgroup accountability.
    The economic downturn over the past years has had a 
devastating impact in Cleveland and in our state, and 
sequestration of important federal education aid for low 
income, minority, and English language learners along with 
students with disabilities has had a further disruptive effect 
on educational services.
    Nonetheless, I remain optimistic about the Cleveland Plan 
inspired by the citizens in our community trying to improve the 
success for students, and I look forward to your support 
through the reauthorization that will give my colleagues and me 
the tools we need to improve the work in America's schools 
today.
    Thank you for the opportunity to testify.
    [The statement of Mr. Gordon follows:]

      Prepared Statement of Eric Gordon, Chief Executive Officer,
                 Cleveland Metropolitan School District

    Good Morning Chairman Kline, Ranking Member Miller, and members of 
the Committee. I am Eric Gordon, the Chief Executive Officer of the 
Cleveland Metropolitan School District. Thank you for the opportunity 
to testify on accountability and school improvement initiatives in our 
nation's public schools. I want also to recognize Congresswoman Marcia 
Fudge, known well in Cleveland for her advocacy of every child's right 
to a quality education.
    The Cleveland Metropolitan School District (CMSD) is the second 
largest school district in Ohio, where more than 40,000 students and 
their families count on us to provide the best education possible for 
them. Our school system is particularly challenged by having a 47% 
Census poverty rate, the second highest among the nation's Great City 
Schools, and a free and reduced price lunch rate of 100%.
    Prior to my appointment as CEO, I served as Cleveland's Chief 
Academic Officer and one of the main architects of a transformation 
plan to move Cleveland forward to become not only a premier school 
district in the United States, but also a district of premier schools. 
This aggressive plan to graduate our children ready for jobs and higher 
education at times has been mired in contractual and legal barriers to 
school reform-barriers that citizens and leaders across Cleveland and 
on both sides of the legislative aisle at the State Capital, have 
worked to overcome. The Cleveland Plan drew national attention in the 
New York Times, the Wall Street Journal and the National Review as a 
model of collaboration that brought Democratic Mayor, Frank Jackson and 
Republican Governor, John Kasich together in a common mission to do 
what's right for kids.
    Moreover, some of the federal statutory and regulatory barriers to 
school reform also have been removed through the flexibility provided 
to Ohio under the U.S. Department of Education's waiver initiative, 
allowing us to better target reform efforts on the schools in greatest 
need and more productive spending of federal Title I funds on effective 
school improvement measures. Otherwise, under the decade-old No Child 
Left Behind Act (NCLB), the 100% proficiency requirement for students 
in every subgroup for school year 2013-2014 would have overwhelmed the 
capacity of the district by requiring improvement plans, corrective 
action plans, or restructuring plans in nearly all of Cleveland's 
schools, as well as directed expenditures to Supplemental Education 
services (SES) that have demonstrated minimal academic value since the 
2002 enactment.
    Notably, however, the critical requirements of the Elementary and 
Secondary Education Act (ESEA) still remain in Cleveland and Ohio, and 
still warrant continued support. Accountability for the performance of 
disadvantaged groups of students (low-income, minority groups, English 
learners, and students with disabilities) is essential, as well as 
transparent reporting of assessment results in the aggregate and in the 
disaggregated form, remains appropriately the cornerstones of federal 
aid.
    Even with some of the toughest challenges in the nation, Cleveland 
has embraced accountability, as demonstrated by volunteering for the 
local Trial Urban NAEP testing initiative with the high academic 
standards set by the independent National Assessment Governing Board. 
It should not be surprising, therefore, that I support requiring Title 
I-funded schools to set academic performance targets to anchor and 
guide their school wide and targeted-assistance plans. And, while 
consensus on a precise trajectory for progress for each such school may 
not be attainable, continuing growth should be the pivotal element--
particularly with so many students performing below proficiency and 
many of the low-achieving student groups also performing below the 
overall statewide average. Moreover, the National Assessment of 
Education Progress has demonstrated that far greater numbers of 
students are not proficient when tested against higher academic 
standards, similar to the Common Core standards now adopted by the vast 
majority of states.
    Now with a shared commitment and some additional flexibility, our 
Cleveland schools can better model the most visionary and successful 
reform strategies in the country, and have replaced the ``one size fits 
all'' reform plans of the past with a portfolio school model that is 
producing dramatic results in cities throughout the nation. The 
portfolio model allows for--
    <bullet> greater autonomy for our schools and increased 
accountability for producing the results our families expect and our 
children deserve;
    <bullet> families to have school choices and access to high quality 
public and charter school options in every neighborhood which fosters 
public engagement;
    <bullet> increased autonomy for schools to hire and place staff 
where they are needed most and to direct resources where they will make 
the most difference; and
    <bullet> student-weighted funding formulas to determine school 
budgets with decisions based on individual student needs rather than 
enrollment numbers.
    Reforms, school improvement strategies, and school intervention 
measures instituted in Cleveland include--
    <bullet> focusing on the District's Central Office on Key roles and 
transfer authority and resources to schools;
    <bullet> growing the number of high performing district and charter 
schools in Cleveland;
    <bullet> investing and phasing in high-leverage system reforms 
including high quality preschool education, year round-calendar, talent 
recruitment, and capacity building for staff;
    <bullet> extensive community engagement; and
    <bullet> performance-based accountability for educators and staff
    Concurrently, Cleveland is aggressively implementing the Common 
Core standards adopted by the State of Ohio. I can't overstate the 
challenge which these world-class academic standards present to our 
School Board, district administration, and every principal and teacher 
in Cleveland. And, we are probably more aggressive in approaching this 
increased academic rigor than most school districts. Although we still 
have more to do, Cleveland has taken the following steps thus far to 
improve our schools--
    <bullet> Provided training for all staff that develops and 
prioritizes mastery of rigorous educational standards aligned to state 
standards
    <bullet> Developed and monitored a guaranteed and viable Scope and 
Sequence for all subjects
    <bullet> Carefully monitored student growth using a variety of 
measures throughout the school year
    <bullet> Implemented research-based classroom instructional 
strategies
    <bullet> Measured non-academic indicators of student achievement 
using conditions for learning surveys throughout the school year to 
yield better decision planning for staff
    <bullet> Provided Social and Emotional Learning Curriculum for all 
students that promotes emotional and academic growth
    <bullet> Increased our technology options for all students
    Without federal support for disadvantaged students and accompanying 
accountability expectations in ESEA, districts like Cleveland would 
have truly been left behind. I would encourage an increased federal 
investment in ESEA to help underwrite the types of reforms that 
Cleveland has initiated and the movement toward world-class academics 
for all students. The traditional provisions of federal law that 
protect the integrity and impact of federal funding (i.e. maintenance 
of effort, supplement not supplant, etc.) continue to be important. 
Yet, there is still need for some additional flexibility to allow 
superintendents, like myself, to better tackle academic and capacity 
problems in our most difficult Title I schools that are constrained by 
rigid requirements and unnecessary paperwork. But, the presumption that 
delegating federal requirements to the States is the best answer to 
resolving the implementation problems of NCLB is rebutted by 
conflicting state requirements that I struggle with daily as 
superintendent, and documented state actions to avoid NCLB 
accountability through statistical manipulations, lowering state 
academic standards, lowering proficiency cut scores, or establishing a 
super-subgroup under waivers in order to avoid subgroup-by-subgroup 
accountability.
    The economic downturn over the past few years has had a devastating 
impact on our city and state. And, the sequestration of important 
federal education aid for low-income, minority, English learners, and 
students with disabilities has had a further disruptive effect on 
educational services.
    Nonetheless, I remain optimistic about the Cleveland Plan, and 
inspired by the citizens of our impoverished jurisdiction who passed a 
15-mill levy to support the Plan and our commitment to providing a 
premier public education for all of our students.
    Thank you for the opportunity to testify today.
                                 ______
                                 
    Chairman Kline. Thank you, Mr. Gordon.
    Mr. Given, you are recognized for 5 minutes.

    STATEMENT OF MATTHEW GIVEN, CHIEF DEVELOPMENT OFFICER, 
                         EDISONLEARNING

    Mr. Given. Chairman Kline, Senior Democratic Member Miller, 
and members of the committee, thank you for this opportunity to 
address you today.
    I have been asked to discuss innovative state strategies 
and approaches to accountability in ways in which states and 
school districts are taking the lead on education reform. I 
hope that you find my remarks useful as you continue your 
deliberations on the reauthorization of the Elementary and 
Secondary Education Act.
    First, as context, I would like to provide a brief 
description of EdisonLearning. EdisonLearning is a premier 
education solutions provider dedicated to improving outcomes 
for students in elementary and secondary schools around the 
world.
    We have served hundreds of schools and hundreds of 
thousands of students, primarily economically disadvantaged 
students, with the focus on school turnaround and innovative 
virtual and blended learning solutions.
    Recent initiatives to provide states more flexibility as 
well as incentives for innovation have given us a glimpse of 
what states are doing with respect to accountability and for 
expanded transparency.
    Initiatives have included new school grading systems, the 
provision of interventions to turnaround persistently low 
performing schools, and renewed focus on high school graduation 
and college and career readiness.
    The following are some major trends in those areas we have 
seen in our work with states, districts, and schools. As states 
have become more proficient and expansive in their assessment 
of schools we are seeing building level challenges earlier than 
ever.
    Various school grading regimes provide a more detailed view 
of school performance and provide an opportunity to take 
corrective action before schools are labeled persistently 
underperforming.
    One of the most effective policies we have seen is the 
introduction of external partners to improve the quality of 
public education. Several states have developed a request for 
proposals process for approving external partners and many 
require the low performing partners to partner with an approved 
organization and take state-defined steps to increase 
achievement while leveraging state and federal resources.
    For example, under Indiana law, if a school remains in the 
lowest performing category for 5 consecutive years, the state 
board must consider assigning a special management team to 
operate all or part of the school.
    In addition, the Indiana Department of Education has 
developed a list of approved partners that may provide targeted 
or comprehensive support to struggling schools.
    We have worked successfully across Indiana, most recently 
as a partner in Gary. Our early wins point to long-term 
success. We have seen increased family and community engagement 
and significant achievement gains in reading and mathematics.
    Virginia has a similarly robust accountability system and 
conducted its own RFP process in 2009 to identify qualified 
lead partners. Only four organizations, including 
EdisonLearning, were deemed to meet the state's standards for 
high-quality, comprehensive school improvement services.
    We have been able to demonstrate our ability to turn around 
low-performing schools by working shoulder to shoulder to 
strengthen school leadership, improve the use of data, and 
support standards-based instruction. Based on our history of 
efficacy, EdisonLearning is an approved partner in 12 of the 
states.
    Federal policy should encourage comprehensive turnaround 
partnerships without dictating the specific strategies to be 
implemented. Where No Child Left Behind fell short was in 
dictating rigid turnaround options rather than giving states 
flexibility to implement promising research-based strategies 
that would meet the needs of particular schools including the 
districts' capacity and strategy.
    The recent shift in graduation reporting requirements 
highlighted the need for high school reform. What is needed now 
is a set of policies that promote innovative, data-driven 
approaches to secondary education in conjunction with 
accountability systems that reflect the new post-secondary 
reality of 21st century college and career requirements.
    Virtual and blended learning programs are some of the most 
promising methods that can be leveraged to address secondary 
school challenges. In our experience, the most compelling 
example of the effective use of blended learning is for the re-
engagement of students who have dropped out of school or are at 
risk of doing so.
    Through a strategic partnership with Magic Johnson 
Enterprises, we have been able to serve students who want to 
graduate but have found the obstacles overwhelming.
    There is a role for the federal government to play in 
incentivizing data-driven reform and we commended the efforts 
to promote innovation that leads to better outcomes.
    At the same time our experience tells us that these 
incentives can be made more effective in several ways and 
ultimately reform cannot succeed if states, districts, schools, 
and their communities do not buy into it and share 
accountability for it.
    Specific lessons we have learned from our partnerships are: 
incentives in the form of funding to improve low-performing 
schools are a necessity regardless of where they come from; 
prescription must include specific support for low-performing 
schools including partnering with experts to improve teaching 
and learning.
    These supports must be triggered early. The longer a school 
struggles, the greater chance that a self-fulfilling culture of 
defeat will settle in making change even more difficult.
    New strategies such as blended learning must be employed to 
increase the number of college-and career-ready graduates. The 
reauthorization of the Elementary and Secondary Education Act 
provides a tremendous opportunity to further innovation that 
leads to measurable, sustainable improvements for all students.
    We agree that schools must be held accountable for teaching 
all students and cannot walk away from failure. In high schools 
in particular, we underscore the pressing nature of the 
challenge faced by millions of students who may not graduate 
and will be underprepared for college or career.
    The next generation of ESEA must balance the need for 
greater state and local flexibility with the need to encourage 
increased accountability and transparency.
    Thank you, Mr. Chairman.
    [The statement of Mr. Given follows:]

    Prepared Statement of Matthew Given, Chief Development Officer, 
                          EdisonLearning, Inc.

    Members of the Committee, thank you for this opportunity to address 
you today. I've been asked to talk about innovative State approaches to 
accountability and ways in which States and school districts are taking 
the lead on education reform. I hope that you find my remarks useful as 
you continue your deliberations on the reauthorization of the 
Elementary and Secondary Education Act.
About EdisonLearning
    Before I discuss what we're seeing ``on the ground,'' I want to 
provide some information about EdisonLearning to give context to my 
testimony. EdisonLearning is an education solutions provider dedicated 
to improving outcomes for students in elementary and secondary schools 
around the world. We currently partner with schools and organizations 
in 25 States, the United Kingdom, and the Middle East. Our core 
competencies, reflected in our extensive portfolio of K-12 solutions, 
are the product of nearly two decades of research, practice, and 
refinement based on quantitative and qualitative data. EdisonLearning 
has nearly twenty years of expertise in education reform, partnering 
with school districts, governments, and charter authorizers and boards. 
We are a State-approved turnaround partner in 12 States: California, 
Colorado, Delaware, Hawaii, Illinois, Indiana, Kentucky, Michigan, 
Missouri, South Carolina, Virginia, and Wisconsin.
State and District Trends
    Recent initiatives to provide States more flexibility and 
incentives for innovation have given us a glimpse of what States are 
doing with respect to accountability for student success and expanding 
transparency, including through new school grading systems, and 
providing interventions to turn around persistently low-performing 
schools. The following are some of the major trends in these areas that 
we have seen in our work with States, districts, and schools.
Partnering for Success
    One of the most effective practices that we have seen is the use of 
external partners to improve the quality of public education. Several 
States have developed a Request for Proposals (RFP) process for 
approving external partners, using certain State and federal resources, 
and many require that low-performing schools partner with an approved 
organization and take legislatively defined steps to increase student 
achievement. Mass Insight's School Turnaround Group, which is a 
national leader in school turnaround research, counsels, ``[a]n RFP 
(Request for Proposal) is a critical first step in vetting and 
selecting Lead Partners to manage school turnaround efforts.'' \1\ By 
rigorously vetting providers through a competitive process, States can 
set a high bar for services, have better oversight of improvement 
efforts, and insulate districts from the costs associated with 
competitive procurement, while still giving districts the flexibility 
to select providers that best meet their needs. Some States also allow 
districts to choose partners that are not on the State-approved list if 
these partners offer proven improvement strategies. We have observed 
increased interest at the district level in partnering for professional 
development--often in specific content areas--and innovative approaches 
to instruction.
---------------------------------------------------------------------------
    \1\ School Turnaround Group (2011). Forging partnerships for 
turnaround: Emerging lessons from state RFP processes. Mass Insight 
Education.
---------------------------------------------------------------------------
Comprehensive Turnaround Partnerships
    Comprehensive turnaround support continues to find an increasingly 
receptive audience at the State level. ``Comprehensive'' means 
different things in different contexts; it can range from hands-on 
instructional improvement services to full management of educational 
and operational components of a school. One State that is relatively 
prescriptive in its requirements for low-performing schools is Indiana, 
where we are currently working with four schools to increase student 
achievement.
    Under Indiana law, if a school remains in the lowest performance 
category for five consecutive years, the State Board must consider 
assigning a ``special management team'' to operate all or part of the 
school. In addition, the Indiana Department of Education (IDOE) has 
developed lists of approved ``Lead Partners'' and ``Turnaround School 
Operators'' that may provide targeted or comprehensive support to 
struggling schools.
    Within this system, EdisonLearning is currently working closely 
with the IDOE to turn around one of the State's lowest-performing high 
schools in Gary, Indiana. We conducted a comprehensive needs assessment 
of the school to determine what interventions were needed to accelerate 
achievement. Based on this ``Collaborative Quality Analysis,'' we 
developed a detailed plan to address the school climate and culture, 
which we found to be major factors in the school's low academic 
performance. This year we have begun to implement our whole school 
reform model, with a focus on the school climate and community 
engagement. Our early ``wins'' point to long-term success. We have seen 
increased family and community engagement and significant achievement 
gains in Reading and Math in grades 11 and 12. We have also begun 
working with an intermediate school in Marion, Indiana.
    Virginia has a similarly robust accountability system and conducted 
its own RFP process in 2009-10 to identify qualified lead partners. 
Only four organizations, including EdisonLearning, were deemed to meet 
the State department of education's standards for high-quality, 
comprehensive school improvement services. When we partnered with our 
first Virginia schools in 2010, we met some resistance to our presence, 
but that quickly changed as we have been able to demonstrate our 
ability to turn around low-performing schools by strengthening school 
leadership, improving the use of data, and supporting standards-based 
instruction.
    In addition, several other Virginia school divisions have expressed 
interest in turnaround or dropout recovery programs. The aggressive 
bipartisan effort of Governor Bob McDonnell to enact further reform 
measures in the Commonwealth has raised hope that more schools will 
have the opportunity to benefit from additional help in implementing 
turnaround strategies. Key among the new reforms is the creation of the 
Opportunity Educational Institution to enable State takeover of failing 
schools similar to Louisiana's Recovery School District (RSD) and 
Tennessee's Achievement School District.
    As I mentioned earlier, EdisonLearning is an approved partner in 12 
States. While some of these States have developed well-defined 
intervention systems to support low-achieving schools, others seem 
hesitant to follow through with the type of successful interventions 
that I've described. Federal policy should encourage comprehensive 
turnaround partnerships without dictating the specific strategies to be 
implemented. Where No Child Left Behind fell short was in dictating 
rigid turnaround options rather than giving States flexibility to 
implement promising, research-based strategies that would meet the 
needs of a particular school.
Targeted Partnerships
    Another way in which States work with outside providers such as 
EdisonLearning is by partnering to provide high-quality, targeted 
embedded support, including professional development, training, 
coaching, and modeling. This trend is no coincidence. The advent of 
more rigorous State standards and their focus on preparing students for 
college and careers requires thoughtful unpacking, mapping, and pacing 
of curriculum and instruction to meet the call for college and career 
readiness.
State-run Districts
    As we will likely hear today from State Superintendent John White, 
Louisiana pioneered the modern State-run model in 2003 when the 
legislature established the RSD, an entity that was originally focused 
on turning around low-performing schools in New Orleans. The RSD has 
fostered significant achievement gains and elimination of the 
achievement gap between students in Orleans Parish and those in the 
rest of the State.\2\ It is a frequently referenced model for State 
intervention. Leading the next generation of State-run turnaround 
districts are the Achievement School District in Tennessee, District 
180 in Kentucky, and the Education Achievement System in Michigan. 
Kentucky in particular has done an excellent job of holding its 
District 180 schools accountable for implementing ambitious improvement 
strategies.
---------------------------------------------------------------------------
    \2\ Transforming Public Education in New Orleans: The Recovery 
School District. The Scott S. Cowen Institute for Public Education 
Initiatives at Tulane University http://www.coweninstitute.com/wp-
content/uploads/2011/12/History-of-the-RSD-Report-2011.pdf
---------------------------------------------------------------------------
Keeping It ``In-house''
    Another trend that we have seen is a State-level commitment to 
deliver professional development and turnaround support ``in-house'' 
through statewide or regional support networks. Unfortunately, these 
kinds of initiatives are logistically complex, and many States do not 
have the capacity to provide individualized support to thousands of 
schools. Large-scale turnaround is a formidable task, but qualified 
organizations like EdisonLearning can help States realize economies of 
scale in the delivery of high-quality school improvement supports. In 
Hawaii, where we support 55 schools across four islands, we work with 
clusters of schools to ensure fidelity to best practice while providing 
highly customized services.
Identifying School Needs
    States, districts, and schools have embraced the concept of data-
driven decision-making as an important component of school improvement. 
Data are the roadmap of a successful improvement journey; they tell us 
where we are, where we want to be, and what we must do to get there. 
Thus, many States and districts are requiring a comprehensive school 
needs assessment to inform improvement planning and implementation. We 
have seen RFPs that explicitly require a school diagnostic review. This 
is another area in which some States and districts have taken a Do-It-
Yourself approach, with State or district teams conducting needs 
assessments themselves. In our experience, the objective eye of a third 
party is critical to the conduct of an accurate review. The 
collaborative nature of EdisonLearning's own in-depth evaluation makes 
it an objective assessment that engages teachers and administrators and 
allows for meaningful customization of services.
Supporting English Language Learners
    Across the nation, we are seeing greater focus on supporting 
English Language Learners. Subgroup reporting requirements have 
strengthened transparency and accountability for educating students 
whose first language is not English. Consequently, we have seen an 
increase in the number of RFPs thatexplicitly require professional 
development and support to help teachers and administrators meet the 
needs of English Language Learners. Comprehensive strategies that 
extend beyond the classroom to engage and empower not only students, 
but also their families, have been the most successful. Similarly, 
strategies that foster integration rather than working in isolation 
yield better results. This is why EdisonLearning's philosophy is one of 
inclusion--we train all teachers together to support all students 
through differentiated instruction and intervention instead of creating 
instructional silos.
Rethinking High School
    The importance of an effective high school design cannot be 
ignored. For this reason, EdisonLearning is one of the few school 
improvement partners that truly differentiate school improvement 
services for elementary and secondary schools. In addition to 
innovative blended learning programs and creative uses of technology, 
we have noted the following trends:
    <bullet> RFPs explicitly seeking expertise in improving high 
schools (as opposed to lower grade levels)
    <bullet> Greater emphasis on competency-based and experiential 
learning
    <bullet> A focus on the Common Core
    <bullet> Increasing willingness to offer flexibility and wrap-
around supports to students whose life circumstances place them at risk 
of disengagement
    <bullet> Attempts to minimize the need for remediation in post-
secondary education
    The recent shift in graduation reporting requirements highlighted 
the need for high school reform. What is needed now is a set of 
policies that promote innovative, data-driven approaches to secondary 
education in conjunction with accountability systems that reflect a new 
post-secondary reality. One way in which States and districts are 
working to improve outcomes is through the expanded use of technology; 
however, as educators work to engage students in an increasingly 
digital society--especially at the high school level--many are still 
finding policies written for an analog world. For example, blended 
learning programs typically emphasize competency-based learning, while 
longstanding policies focus on the amount of time spent in the 
classroom.\3\
---------------------------------------------------------------------------
    \3\ Bailey, J., Ellis, S., Schneider, C., Vander Ark, T. Blended 
Learning Implementation Guide. Digital Learning Now.
---------------------------------------------------------------------------
Improving Education through Technology
    EdisonLearning is already working with many districts to 
incorporate innovative educational solutions within its school 
improvement strategies, including individual online courses and blended 
learning environments. For example, at our partner school in Gary, 
Indiana, students not only have access to traditional coursework in the 
brick-and-mortar classroom, but they can also enroll in a rich variety 
of online courses including core subjects and electives with a STEM 
emphasis. Consistent with the school's focus on college and career 
readiness, our courses require students to use technology in the 
classroom the same way it is used in the real world: to enhance 
productivity, efficiency, creative expression, communication, and 
access to information.
    In our experience, the most compelling example of the effective use 
of blended learning is for the engagement of students who have dropped 
out of school or are at risk of doing so. Through a strategic 
partnership with Magic Johnson Enterprises, we have been able to serve 
students who want to graduate but find the obstacles overwhelming. In 
order to adequately support these students, our Magic Johnson 
Bridgescape(r) Academies combine 1) a blended instructional model, 2) 
an individualized instruction path for each student, and 3) the 
counseling and coaching necessary to earn a high school diploma and 
achieve success beyond graduation. EdisonLearning currently partners 
with districts in 6 States to operate 17 Magic Johnson Bridgescape(r) 
Academies.
    In order for these types of innovative solutions to be successfully 
incorporated into a strategy or framework for school improvement, there 
must be mechanisms in place to allow for flexibility and innovation. 
Examples of such mechanisms include seat-time waivers, competency-based 
credit, and a general recognition of online and blended learning. Ohio 
was the proving ground for the Magic Johnson Bridgescape(r) dropout 
prevention and recovery model because it pioneered special 
accountability provisions for high schools designed to re-engage 
dropouts. The results were overwhelmingly positive:
    <bullet> 64% of eligible students received their high school 
diploma and continued on the path to post-secondary education and the 
world of work.
    <bullet> Eight out of ten of our Ohio Magic Johnson Bridgescape(r) 
Academies made AYP.
    <bullet> 74% of students in the program at the end of the 2011-12 
school year returned for the 2012-13 school year and continued working 
toward a high school diploma.
Conclusion
    There is a role for the federal government to play in incentivizing 
data-driven reform, and we commend efforts to promote innovation that 
leads to better outcomes. At the same time, our experience tells us 
that 1) these incentives could be made more effective in several ways, 
and 2) ultimately, reform cannot happen if States, districts, schools, 
and communities do not buy into it and are not held accountable for it. 
Specific lessons that we've learned from our partnerships are:
    <bullet> Incentives for improving low-performing schools are a 
necessity--regardless of where they come from, and so is funding to 
support them; however, these incentives are most effective when States 
and districts use the money to identify and implement proven strategies 
to improve the quality of education and increase student achievement.
    <bullet> Prescription must include specific consequences for low 
performance, including partnering with experts to improve teaching and 
learning. Such provisions must be mandatory rather than permissive or 
precatory.
    <bullet> The external partner requirement must be triggered early. 
The longer a school struggles, the greater the chances of a self-
fulfilling culture of defeat will settle in, making change even more 
difficult. Early intervention is key in improving schools.
    <bullet> When States develop lists of approved partners from which 
districts and schools may choose, they have better oversight of 
improvement efforts.
    <bullet> Federal incentives help, but States and districts must 
collaborate with each other to lead reform efforts.
    <bullet> State-run districts must have a clear mandate, ambitious 
timelines, and dedicated funding. They must be eligible for federal 
funding.
    Reauthorization of the Elementary and Secondary Education Act 
presents a tremendous opportunity to further innovation that leads to 
measurable, sustainable improvement for all students. We all agree that 
schools must be held accountable for teaching all students and cannot 
walk away from failure. The next generation ESEA must balance the need 
for greater State and local flexibility with the need to encourage 
increased accountability and transparency.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    Chairman Kline. Thank you.
    Thank you all. I think there is a pretty strong agreement 
amongst you sitting there and we sitting here that there were 
some really important positive things that came out of No Child 
Left Behind.
    Obviously the focus of making sure that every child gets 
the education they need in the very name of the bill and the 
importance of getting the data that is disaggregated. I think 
all of you have used that term or if you think of it every day, 
so that we can make sure that we are not leaving groups behind.
    And yet all of you have got some complaints about No Child 
Left Behind and a desire to see a change and to see the 
legislation rewritten. We have been working on this for some 
years because we couldn't agree with you more that it needs to 
be rewritten.
    Two congresses ago when Mr. Miller was the Chairman we were 
working, trying to sort through this and figure out the proper 
role of the federal government and the proper roles of states 
and local governments and superintendents and principals and 
teachers and that gets often at the crux of the problem.
    So the critics of more state and local flexibility argue 
that states and school districts and arguably superintendents 
can't be trusted to hold their schools accountable and that 
this approach will cause harm to the most vulnerable students 
including the low income students, and Mr. Gordon, you talked 
about the 100 percent free lunch and breakfast.
    But Mr. White, you had pretty compelling testimony that you 
have the ability in Louisiana, in New Orleans to make sure you 
are not leaving those students behind.
    Could you respond to that criticism that says that the 
government, the U.S. Department of Education has to step in and 
can't give the flexibility that many of you are talking about?
    Mr. White. Certainly.
    I would say, Mr. Chairman, that certainly there is a role 
for the federal government to insist on accountability for 
results, and I think every state needs to and wants to work 
with the federal government on that question and I think the 
federal government should insist on results.
    At the same time, it is fair to say that, certainly in our 
state, I believe we are years ahead because of the work that we 
have done ourselves on measures both to protect the rights of 
historically disadvantaged populations and to ensure that our 
education system is actually fulfilling its responsibility to 
prepare kids for adulthood.
    As a result, I think a problem would be if we continue to 
insist on the idea that a pro forma set of metrics developed in 
Washington are suitable for every circumstance in the state 
because it totally negates the power of the states to be policy 
leverage-holders, and I hope that in the next incarnation of 
ESEA the reauthorization will very much take into account many 
of those ideas that we have seen because they have evolved from 
the states, and secondly will allow states the continued 
flexibility to articulate those kinds of innovations.
    Chairman Kline. Thank you.
    Dr. Richardson, you and I have sat at roundtable 
discussions many, many times where we had representatives of 
the teachers' union, Education Minnesota, we had principals, we 
had superintendents, and in your testimony you talked about the 
importance of giving school districts and schools the 
opportunity to develop and implement plans that are embraced by 
the larger community. Can you talk about the importance of that 
buy-in into whatever you are doing or we are doing?
    Mr. Richardson. Yes, Mr. Chair. What I have seen over the 
years is that if you do not bring all of the key stakeholders 
together in working through processes, you tend to be the 
person out in front trying to run with the idea and people 
behind you are letting you go.
    What I found over the years and this is my 33rd year as a 
school superintendent, is that the best way to see change 
happen is to bring the folks along. And so as we work with 
professional learning communities in our district, as we have 
worked with RTI in our district, as we work for the TORCH 
program in our district, the efforts came through the 
administrators and teachers and community members sitting down 
together and working through that process.
    When you do that, people have buy-in, people will work with 
you, and they aren't sabotaging you during the process. And I 
think we have been able to demonstrate pretty clearly that by 
doing that and by, I think, kind of unleashing the creativity 
that our teachers and building administrators have we have been 
able to do things that would never have been able to be done if 
we had just been a prescribed format and that is the only 
format that we can go forward with.
    Chairman Kline. Thank you very much.
    My time has expired.
    Mr. Miller?
    Mr. Miller. Let me just say I want to thank this panel so 
very much because I think you have, you know, across different 
districts, different kinds of states and student loads, you 
have shown us that there is in fact a path forward here.
    It is interesting that each of you from your different 
perspectives has fully embraced the idea that there has to be 
this federal measure of accountability and that at the end of 
the day No Child Left Behind and ESEA are basic fundamental 
civil rights acts, and it is because our country holds up so 
high in value an education, the importance of an education that 
all children are to have the opportunity to achieve.
    And, you know, Mr. White, I spent a lot of time over the 
years--I have been here a long time visiting in New Orleans 
schools and when I walked away--I was almost crying most of the 
time I visited that state and visited the schools, mainly in 
New Orleans, and after the hurricane the energy that came with 
the Recovery District, came with the entrepreneurs that flocked 
to New Orleans to demonstrate what was possible in the 
classroom with that exact population; it was so desperately in 
need and had been denied so long and New Orleans was just 
exciting, and I think that is important.
    And Mr. Richardson, you know, you point out when, you know, 
when you had this arrival of the Hispanic population that were 
struggling within your school district, there is a way to 
manage that, there is a way to address that, and performance 
was improved.
    And so what we see is that, you know, there is no parent in 
this country that doesn't want their child counted whether that 
child has some--suffers from disabilities or is an exceptional 
child or is a middle-of-the-road child or is a minority or 
English learner and stuff like that, they want that kid counted 
and absolutely, you know, No Child Left Behind did that.
    I remember the first time those results were published in 
my local newspaper. I have met a lot of mothers and 
grandmothers and fathers and grandfathers up close and 
personal, and they didn't want to meet with me, they wanted me 
to bring the superintendent of schools to meet with them.
    But you have also said that in the same span of time that 
districts and states and others have figured out how to move 
forward given their situation. Cleveland, obviously, is 
struggling.
    But you now believe that the Cleveland Plan, Mr. Gordon, 
that you in fact have figured a way forward, and you are 
getting community support for that. You are still going to be 
measured on the progress of the students and you are willing to 
measure yourself not only pursuing Common Core assessments but 
also alongside of NAEP so we can really see if in fact we are 
getting the education that allows them to participate in our--
fully in our society and in our economy.
    And, Mr. Given, obviously your enterprise is based upon 
people being able to look at the test scores and decide they 
may want to head off in a different direction.
    They want to build additional capacity or they want to 
manage the portfolio that each one of you is in fact managing 
now. Nobody talked about portfolio 11 years ago. We talked 
about it when we introduced our discussion draft here, and the 
arrows came flying in on both sides of the aisle. Nobody 
mentioned portfolios.
    Now it is a common discussion. It is a common discussion 
and portfolios lead to a different teacher core and different 
professional development. So the real question is can we do 
what we should be doing, which is making sure that every child 
has the opportunity to be exposed to a high-quality education 
and we get to measure the outcomes?
    You get to use the data, how you want to change the 
circumstances, improve them, or continue your growth wherever 
you are in this timeframe.
    I just--I would like to hear your comment on this because I 
think this is about as clear an example of where the federal 
role should be and where it has been and maybe where it should 
come back to a number of steps in terms of this kind of 
innovation that is taking place in this type of response to 
your local economies, your local constituents, and the parents 
of these children.
    Mr. White, Mr. Richardson, Mr. Gordon? You have got to 
hurry. That light is orange.
    Mr. White. Representative, with the question being us 
taking the information we have and how to make the best use of 
it in our states, we are--we start with the ideas, as I said in 
my testimony, of a great school seat for every child.
    And we know that there are still kids in our states--too 
many kids in our state for whom we have not fulfilled that 
promise. Starting with the student outcomes, we then move to a 
portfolio idea where we say how can we ensure that irrespective 
of the exact type of governance structure, irrespective of the 
instructional plan that we determined, that actually the parent 
and the child are getting exactly what they need and that we 
use data both to ensure that we are providing that seat for 
that child and to ensure there is complete accountability for 
what in the end the child receives. I think that is a model 
that every state is and should adopt.
    Mr. Miller. Go for it, Mr. Richardson. He won't cut you off 
here----
    [Laughter.]
    Mr. Richardson. Okay, thank you. I think that again the 
thing that we have seen is that when folks are working together 
in the process, we get things to happen that don't happen when 
they are being driven by another location.
    So the trick is to try to get the parameters right at your 
level and to the flexibility right at our level to get the work 
done.
    Mr. Miller. Thank you. Mr. Gordon, I will get back to you--
--
    Chairman Kline. He is a master. Absolutely a master at 
this.
    Thank you very much and thank you for your understanding.
    Ms. Foxx?
    Ms. Foxx. Thank you, Mr. Chairman.
    Mr. White, your testimony discusses the challenges 
presented by the current fragmented federal funding structure. 
Could you talk about how you have condensed 23 federal programs 
into one, and maybe say a couple of things about how the 
fragmentation has negatively impacted your schools? I think we 
probably know a good bit about how that happens but bring that 
in if you need to.
    Mr. White. Representative, one of the things I take from 
Dr. Richardson's testimony is that at a school having a unified 
plan and having every teacher, every parent, every community 
member invested in that one plan is the great challenge; that 
for a school coherent planning around the needs of the child is 
the big challenge.
    Everyone is on the same page, and I think one of the 
unfortunate consequences of the federal law as it is currently 
articulated is that it drives activity in a million different 
directions. And when I look at the spending and the 
requirements for each grant, when I look at the corrective 
action requirements that come out of failure on subgroups and 
on NCLB overall, I see a lot of central office jobs in states 
and school systems, I see a lot of confused teachers, and I see 
a lot of rules and regulations.
    I don't see coherence and that means that even in the most 
dire circumstances such as we face in New Orleans and many of 
our districts where the challenge really is coherent planning 
around the needs of the child, we have the most aggressive 
corrective action.
    We have the most amount of federal involvement and being 
driven in a million different directions. We can stop that to 
some degree today by states stepping up and taking 
responsibility by creating one application for federal funds so 
that districts can operate one plan, by having one monitoring 
cycle in the use of those dollars, and by having and taking 
advantage of new requirements or new flexibilities that have 
been extended to states that we are very grateful for, but we 
ask you to please take that a step further.
    Please make that framework of coherence and simplicity over 
confusion in a million different directions a core principle of 
the ESEA reauthorization.
    Ms. Foxx. Thank you very much.
    I have often said the schools are designed for the 
administrators, not for the students. I have seen it over and 
over again.
    Mr. Given, in your testimony you talked about your work to 
develop blended and virtual education options as school 
improvement strategies. Could you talk about how these new 
approaches improve school and student performance and what are 
some of the policy barriers either at the federal, state, or 
local level that prevent access to blended and virtual learning 
options?
    Mr. Given. Sure. Thank you, Congresswoman.
    The technology today has advanced obviously dramatically 
from the days of textbooks and chalkboards. We are in a new 
position where we can deliver instruction to the student, at 
the student's level, at that student's ability, and in that 
student's own time where they can learn at their own pace and 
be supported by qualified, helpful, and proficient teachers and 
be instructed by them but do that in a more individualized 
manner.
    So we spent a great deal of time developing curricula, the 
technology that underpins that curricula to make sure that 
students can be delivered education where they are and where 
they need it.
    And so that is the promise. We have seen some very good 
success recently especially engaging extra low performing 
students, in fact, students that have dropped out of school. 
And we are recruiting back to schools in different programs; 
some in Cleveland through our Magic Johnson Bridgescape program 
but there are policy barriers and most of them are at the state 
level and a lot of them have to do with things like seat time, 
attendance accounting, and credit recording and how those 
students are going to receive credit we think they should 
receive credit for mastery of the material.
    If they have met the standards, understand them, and can 
show proficiency in there, they should get that credit and be 
able to move themselves through the high school process. So 
some states allow for that. Some states do not.
    I am not sure that there is a prescriptive federal role 
there because I think that is something that the states can 
really dial-in in their own communities, but it is a very 
interesting and very promising path forward for students, 
especially underperforming students.
    Ms. Foxx. Thank you very much. The federal government is 
trying to impose itself at the post-secondary level in this 
area. Let's hope it doesn't look for a way to do it at the 
elementary and secondary level.
    Thank you, Mr. Chairman.
    Chairman Kline. Thank the gentlelady.
    Mr. Andrews, you are recognized for 5 minutes.
    Mr. Andrews. Thank you, Mr. Chairman.
    I thank the witnesses.
    I don't think you can overstate the importance of math 
skills in the global economic competition in which we find 
ourselves. In this regard, No Child Left Behind is kind of a 
two-chapter story. If you look at the eighth grade results on 
the NAEPs test for math, in the earliest years of No Child Left 
Behind we went from 27 percent of our eighth graders being 
proficient to 36 by 2005; pretty impressive gain.
    Since 2005, however, we kind of stalled out. We have gone 
from 36 only up to 43 so we are gaining on the NAEPs test 1 
percent per year. To put that into some perspective, in 
Shanghai, in the most recent year, 75 percent of the students 
tested as proficient in math.
    So at this rate, we will catch up to Shanghai 30 years from 
now. The global economy is not going to wait 30 years for us to 
do that. Based upon the experiences the four of you have had, 
what is the single most effective math improvement strategy you 
have seen and if you could briefly describe it to us.
    Mr. White?
    Mr. White. Representative, it is far and away the caliber 
and the background of the educators involved in the question. 
And I would suggest that in your consideration of our workforce 
measures, that the Congress consider going even beyond looking 
at teacher evaluation measures to look at actually, who are we 
attracting into the profession and what are the standards that 
the institutions who credential those people use to admit 
candidates in the first place?
    Mr. Andrews. Are we paying math teachers enough?
    Mr. White. I don't think we are paying teachers enough 
period, but I would also say that when you are talking about 
particular competitive fields like mathematics where people can 
step into the private sector and make double what they can make 
as a teacher right out of undergrad, not to mention all of the 
requirements that go into that have to be demonstrated in order 
to really master math and teach it at a secondary level, we 
really need to be ensuring that we have a better system of 
workforce development than we do and it goes beyond teacher 
evaluation.
    Mr. Andrews. Thank you.
    Dr. Richardson, what would you say?
    Mr. Richardson. I would say again, strongest piece is 
having the high quality professional staff to do the job, but I 
think it is also really looking at the concept of how soon we 
intervene now when we find students are not mastering specific 
concepts.
    Mr. Andrews. Have you found online tools to be useful in 
targeting that intervention?
    Mr. Richardson. We have been able to use some online tools 
in terms of materials that allow us to, once an intervention is 
identified or once an area where a student is behind is 
identified, we are able to target them and give them specific 
instruction in that area.
    Again, I think it takes the master teacher to do that and 
and also takes teachers on a regular basis like every week 
looking at how students are doing.
    Mr. Andrews. Thank you.
    Mr. Gordon, what is your view?
    Mr. Gordon. Congressman, I would agree. I would agree that 
both of those elements are important. I would say that there is 
a third element. I just returned from a trip to China and 
actually partnered Cleveland with Shanghai and had the 
opportunity to engage with Chinese educators. And I would say 
that we also have to pay attention to what mathematics we are 
teaching our children in America.
    We know that fourth-graders do well, 8th graders do less 
well, 12th-graders do pretty poorly, and we know from Ohio for 
example that Ohio's math achievement scores have raised year 
after year even as NAEP scores have remained flat.
    That is a question of what is being taught because kids are 
learning; the question is, are they learning the right content 
as well? So we need the right instructors. We need to make sure 
that we have the right responses and that comes from that 
instructor. I actually think blended learning is a part of it, 
not technology alone, but it still matters what we are 
teaching.
    Mr. Andrews. Do you have vacancies for math teachers in the 
Cleveland schools?
    Mr. Gordon. Despite the declining enrollment, mathematics 
is an area where we have vacancies.
    Mr. Given, what is your view on this?
    Mr. Given. Well, not to sound like a broken record, 
Congressman, but some of the things that my colleagues have 
said are absolutely the case.
    What I think is interesting over the last No Child Left 
Behind era is the focus early-on on reading first, and that 
literacy focus kind of left out numeracy as a really critical 
area started very early in elementary and moving it forward 
into high school teaching. As Mr. Gordon said the right things 
and the right intensity of things; how rigorous are we being in 
our standards? I think that is an important element here too, 
but all of the challenges that have been mentioned are 
certainly challenges across the board. Finding the most 
qualified teachers to deliver that service is a challenge.
    Mr. Andrews. Thank you, Mr. Chairman. It is interesting to 
hear this consensus across experiences and kinds of districts 
and hopefully we can work together and write a law that 
facilitates the improvements that these witnesses have 
described to us.
    Thank you.
    Chairman Kline. I thank the gentleman.
    Mr. Walberg?
    Mr. Walberg. Thank you, Mr. Chairman.
    And thanks to the panel for being here.
    Mr. Given, it is clear that your organization has a great 
deal of experience in turning around troubled, challenged 
schools for the benefit of the kids--of the students. How 
important are the state and local efforts in reforming schools 
in proportion to federal assistance?
    Mr. Given. Thank you, Congressman.
    We have seen the action in school reform happen at the 
states. Obviously No Child Left Behind lays out some parameters 
as schools are found persistently underperforming. There are a 
lot of challenges in the way those parameters are set out and I 
think the superintendent on this panel would find that those 
challenges are very real.
    There is a talent challenge when schools have to be 
reconstituted; who is going to fill the reconstituted, the 
missing seats, when we are already at a talent deficit in some 
things like mathematics as we discussed.
    So I think as the states look at strategies and I am sure 
Mr. White could echo this very well, they have got to be really 
flexible to the state's environment and that state's strategies 
of what is going to go on or else they can't work because there 
aren't the tools in place to make them work.
    And so I think having the federal government push those 
resources to the states and having the states if there is 
encouragement and incentive to use replicable, proven 
strategies to improve those schools, we are going to see some 
wins and we are starting to see those wins not only in 
Louisiana but in other states like Virginia and Indiana that I 
mentioned, and Hawaii is another great example.
    Mr. Walberg. That being the case, do we in Congress need 
then to strongly highlight the need for this type of reform to 
be driven at the state and local levels?
    Mr. Given. I think highlighting is a good idea. I think 
highlighting it earlier in the process, as I said in my 
testimony, we have the tools today to evaluate and understand 
that there are challenges in schools much earlier than we did 
previously.
    We have more efficacy data on what is happening in a 
school. We have more data on student performance and on teacher 
performance, so if we can encourage earlier intervention, it is 
going to be easier to solve the problem than scrapping an 
entire school and try to build one from scratch which is some 
of what we are doing now.
    Mr. Walberg. It is sad that seems like common sense, 
doesn't it, but we have missed it.
    Mr. Given. It does. You are right.
    Mr. Walberg. Mr. White, you have given us a great example 
in your testimony of how parents and educators working together 
have created prosperous conditions for students in New Orleans, 
to say the least, especially in comparison to what was going 
on.
    One of the goals that we have in reauthorizing ESEA is to 
reduce bureaucratic involvement and turn decision-making back 
to educators, parents, and students as well. How did current 
federal laws create confusion and add to difficulties in 
creating successful schools and students in your opinion?
    Mr. White. Well, Mr. Congressman, I think that they start 
with the idea of prescriptions from Washington that essentially 
send to different people in a million different planning 
processes, a million different spending requirements, and 
distracts from some of the simple principles that I and others 
on this panel have articulated today, which are teachers and 
parents looking at real outcomes and planning for real next 
steps.
    I think that the idea that states should identify the 
lowest performing schools is one of the strongest legacies of 
No Child Left Behind, but how we provide parents with better 
alternatives and how we turn those schools around ultimately 
must be decisions that are owned by people closer to the 
problems or else we will continue to create central office jobs 
and not a lot of better outcomes for kids.
    Mr. Walberg. And you see the ownership by those most 
closely connected to students themselves as primary and 
significant to success?
    Mr. White. Absolutely. The parent must have choice 
especially those who have been historically disadvantaged and 
who are trapped in struggling schools must be given better 
options. And we have talked about, today about creating a 
portfolio of better options and schools and districts must be 
given power to--and requirements--as to how they turn those 
schools around.
    Mr. Walberg. Thank you.
    Dr. Richardson, I applaud you for working with our 
chairman. It is good work you do. What would you consider to be 
a more appropriate federal role in areas such as testing, data 
collection, reporting, and how would you shift that 
responsibility to states and local school districts?
    Mr. Richardson. Congressman, my sense is that states are 
really in local schools looking for the federal government to 
provide a broad set of parameters; basically again identifying 
the concept of accountability making sure that we are providing 
assessment that looks at growth, that looks at proficiency, 
that looks at achievement gap, and also provides broad 
parameters around district and school planning and in terms of 
communication with constituents and parents.
    What I think we don't need is extremely prescriptive pieces 
of: ``you will do with this--you will do a single test; you 
will deal with underperforming schools in a particular 
prescribed set of steps,'' because I think what we find is 
every school district and every school needs different levels 
of support. And again, I think what we found is that when we 
have been given that ability to do that, I think we do much 
better at the local level and at the state level than we do at 
the federal level.
    Mr. Walberg. Thank you.
    And thank you, Mr. Chairman.
    Mr. Richardson. Thank you.
    Chairman Kline. The gentleman's time has expired. You can 
see that there are a lot of people following the fine example 
set by Mr. Miller in asking a question with 5 seconds left on 
the clock.
    Mrs. McCarthy, you are recognized.
    Mrs. McCarthy. Thank you, Mr. Chairman, and I will try to 
do better here.
    One of the things that I wanted to bring up, this is 
National Nurses Week and I have always been focusing on school 
nurses mainly because I come from a nursing background myself.
    So it is a little bit different but with all the schools 
that you are talking about are underserved areas and obviously 
nutrition, physical education is probably something that also 
would help with learning abilities.
    So with that, I will be reintroducing the Student to School 
Nurse Ratio Improvement Act because what we found that the 
schools that have a very low and Mr. Gordon, you know, I am not 
picking on you, we saw that like in Cleveland 15 percent of 
your students are considered very fragile.
    I would tend to think the numbers might be higher or lower 
in some of the other schools because you are 100 percent free 
or reduced lunches, 100 percent breakfasts, that is usually a 
sign of poverty.
    So what we have seen is that schools having a nursing 
shortage, it does take time away from the principals, from the 
teachers, because if they don't have a school nurse then they 
are taking over those duties.
    So in your--you know--I was just wondering we saw also that 
schools that don't have school nurses there is a lot more 
absentees. There are a lot more sick days obviously and we see 
that this also brings down the marks of children. And yet in 
those schools and I am very lucky on Long Island, most of our 
schools do have school nurses and we also saw those marks go up 
when the nurse was very involved with the superintendent, with 
the principals to make sure nutrition and physical education 
were part of it to make them healthy and especially the lower 
grades, the kids had more energy to concentrate on the subjects 
itself.
    So I was just wondering, Mr. Gordon, in your testimony, you 
listed school improvement strategies that are being implemented 
in your district. Have you explored the issue of school nursing 
shortages and if so, how and if not, why not? And I guess I can 
put that to everybody.
    Mr. Gordon. Thank you Congresswoman. We actually put a lot 
of attention in Cleveland to the social and emotional learning 
needs for our children that our nursing corps along with our 
psychologists, social workers, and guidance counselors are 
largely responsible for. I don't have a shortage of nurses 
available, I have a shortage of resources to invest in my 
nurses.
    Therefore, over the last several years we have laid off 
over 1,000 people; many of them school nurses, social workers, 
and guidance counselors.
    Even as we know that the meta-analysis around social and 
emotional learning has a correlation of having these skills and 
wellness is attributed with 11 percent gain in reading.
    It is something that I need desperately. So I would say for 
us the challenge is that the physical challenge, it is the 
resources to think of a wraparound strategy for the needs that 
my children and community have.
    Mrs. McCarthy. So let me ask you well--being that it was a 
competitive grant, which it would have to be, to be able to use 
those funds to bring school nurses back into your buildings or 
at least rotate into a better situation on having nurses rotate 
especially in the city areas where they can go to school to 
school, Mr. Richardson, Dr. Richardson?
    Mr. Richardson. Congresswoman, I think one of the key 
issues that we are going to face again is looking at sizes of 
districts. As a district of about 4,000 students, our ability 
to look at a competitive grant and be successful in writing a 
competitive grant for additional nursing services rapidly is 
going to be extremely limited.
    We are very fortunate right now. We do have registered 
nurses in every building. Where we really see and really 
struggle is in buildings that have district-centered special 
education programs especially for low-incident students, for 
autism spectrum students, for students that are medically 
fragile and the issue being that it really does take up a huge 
amount of that nurse's time to support those students, which 
then leaves very limited time for that nurse to be able to 
address the needs of regular education students within the 
building.
    So we would look more for support in terms of helping to 
augment nursing services in those buildings that have district-
centered services and the special ed.
    Mrs. McCarthy. Mr. White?
    Mr. White. I would echo of lot of what Dr. Richardson just 
said, which is that the states and school systems must provide 
basic services and basic infrastructure especially for the most 
severely impacted students and at the same time--and must have 
requirements regarding school nurses--at the same time, the 
solutions that schools develop regarding the nutrition issues 
are just like the ones they develop regarding academic issues. 
We should empower our schools to develop solutions for their 
populations more than we should restrict them to state-led 
systems.
    Mrs. McCarthy. Thank you very much.
    I yield back.
    Chairman Kline. Thank the gentlelady.
    Mrs. Brooks?
    Mrs. Brooks. Thank you, Mr. Chairman.
    There is such an emphasis in our K-12 system for everyone 
to go on to a 4-year college and I have come from our state's 
community college system and I am curious.
    In the middle schools, kids are asked to choose the college 
track or the career and vocational track, and so many, I think, 
kids really don't know what those different possibilities for 
careers are and we have so many jobs right now that aren't 
being filled because there are so many young people that really 
don't know about this possibility because they were on what 
they thought was the college track.
    I am curious how your school systems are blending, if they 
are at all, the college, the so-called college track versus the 
career and vocational track because when kids choose to go to 
the career and vocational programs they often feel like they 
are going to a totally separate school and in fact, they are 
going to totally separate schools.
    They are off-campus often for hours at a time during the 
day, meaning they can't even explore or take, often, those AP 
courses. And we have some students said that I think would like 
to test and take both rather than deciding in eighth grade or 
ninth grade what track they are on. So I am curious what your 
school systems are all doing to align those systems and give 
our young people a better opportunity to explore careers or 
their futures.
    Mr. White?
    Mr. White. Well let me echo first of all the idea that 
diploma tracks should never take a child off of--allowing them 
to make a decision that changes their future. You never want at 
14, 15 years old, to make a decision that impacts the rest of 
your life irrespective of your changing--wanting to change that 
decision a couple of years later. So we are creating seamless 
diploma paths that allow for constant movement of back and 
forth from one to the next.
    Second, we have to integrate our technical college system, 
our private workforce development system at our high school is 
much better than we have so that kids are earning college 
credit that can be transferred on an academic or a technical 
path as they go forward. But third, let me say that regarding 
ESEA reauthorization if we don't allow states the ability to 
determine some of the accountability measures, we will not 
allow states to progress in real career and workforce 
attainment measures including--included in our school 
accountability system. And if we don't do that then we will 
never resuscitate the career education systems because we will 
continue to systemically devalue career education attainment if 
we don't give the states the power to create those kinds of 
measures.
    Mrs. Brooks. Thank you. Dr. Richardson?
    Mr. Richardson. I would agree very much with Mr. White in 
terms of the sense that the more we can do in terms of making 
it very seamless all the way through graduation, the 
opportunities either to go into a vocational program or 
technical program or to go into college track, and I think we 
have done that in Minnesota by really focusing on trying to 
make sure that students have opportunities all the way through 
12th grade to continue to take courses that will let them 
branch out or go to various places.
    I think the other thing that we really focused on is we 
really focused on college in the schools and also PSCO or post-
secondary programming, which for the most part in Minnesota 
tends to go to career and technical colleges where students are 
able to either take courses within our system that have 
credit--that gives them credit for their technical school or 
that they have options close by where they can take advanced 
technical courses.
    Mrs. Brooks. My--I am curious though whether or not 
students have the opportunity to--because often in the career 
programs are off-campus, off-site--do students have the 
opportunity to take AP classes if they choose career and tech 
classes?
    Mr. Richardson. In Minnesota, they do.
    Mrs. Brooks. Okay, terrific.
    Mr. Gordon?
    Mr. Gordon. Thank you. I would start with the premise that 
we know ACT college readiness is largely considered a 21. ACT 
career readiness is largely considered a 20. They are 
essentially the same in today's world and so we have to abandon 
the notion that the old-fashioned woodshop is career technical 
education and instead, need to think about construction 
industries as career technical education, school-to-
apprenticeship programs, school programs that allow my students 
to access our community college for the career tech programs 
that are already being provided for adult retraining instead of 
provided for students in their primary training.
    So our strategy is that regardless of the option you choose 
in a portfolio district, and our options include those that are 
more traditional career and technical options, manufacturing, 
construction, and more of the nontraditional moving into the 
STEM industries, a partnership with GE, that every one of those 
should allow you access to a high-wage career and to the 
opportunity for post-secondary advancement, which we have 
actually intentionally talked to our community about as college 
and career readiness; not one or the other, but both.
    Mrs. Brooks. Thank you.
    Chairman Kline. Thank the gentlelady.
    Ms. Fudge, you are recognized for 5 minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman.
    And thank you all for your testimony today, and certainly, 
it is good to see Mr. Gordon. I am sure Cleveland is happy to 
have you.
    I have some questions and I am hoping that since it is a 
short time you can give me some brief answers, I would 
appreciate it. First, let me just ask, would any of you 
disagree with the fact that the cuts to Head Start and Early 
Head Start and Title I are going to be detrimental to your 
programs going forward as young people will not be as prepared 
coming into school?
    No one disagrees with that? Thank you.
    Let me ask you as well and I will start with Mr. White, in 
your testimony you argued that states should achieve their 
performance goals or receive fewer federal dollars.
    So let me ask you, are you--and then you said further that 
it is especially true for historically disadvantaged students--
should not our role be to educate all students?
    Mr. White. Our role should absolutely be to educate all 
students and we need to insist on quality. I believe the 
federal role should be to help states set high quality targets, 
and I believe that at some level that federal government needs 
to stop funding consistent failure against those targets.
    Ms. Fudge. So then you do believe that there is a federal 
role in education?
    Mr. White. I absolutely believe there is a federal role in 
education. I believe that federal role needs to more greatly 
empower states.
    Ms. Fudge. Okay. Thanks.
    Mr. Richardson, Dr. Richardson, what is the median 
household income of your district?
    Mr. Richardson. I am sorry?
    Ms. Fudge. What is the median household income of your 
district?
    Mr. Richardson. About $25,000.
    Ms. Fudge. And what is the demographic makeup of your 
district?
    Mr. Richardson. Demographic makeup: approximately 83 
percent white, about 12 percent Latino, and then a very small 
number of African American, Asian, and other populations.
    Ms. Fudge. Thank you.
    Now I will go to my CEO. Mr. Gordon, what federal 
parameters should we preserve in the new ESEA? We talked about 
all of the things that are wrong with it. What do you think is 
right with it?
    Mr. Gordon. You know, Congresswoman, Congress spends $55 
million a year annually in Cleveland alone so you have a large 
investment in our city and large investments across the 
country.
    I think that Congress needs to set clear, high standards 
and expectations. I do believe there needs to be flexibility. I 
don't think it can be simply divulged to states. States do it 
well and I have worked in New Orleans and watched from afar 
after having left to empower school leaders like me to do the 
work that you are asking us to do.
    But there are other states and unfortunately often in my 
own where we instead comply our way to quality and without some 
form of expectation about what flexibility is going to be, 
meaning to me as the practitioner trying to do the work, you 
can end up with principals like mine spending an hour a week of 
logging-in their week's agendas into a computer so that they 
have been compliant to a state regulation.
    So for me it is clear expectations against high standards 
and then clear definitions of how that flexibility moves not 
only through the state but to me as the leader on the ground 
doing the work and my teachers and principals in our schools.
    Ms. Fudge. I agree. I think that the states should not have 
any more authority than they currently have.
    But let me as well ask you this question, Mr. Gordon. The 
Cleveland school district has spent a great deal of time on 
school safety and social and emotional well-being. As we cut 
funding, whether it be through sequester or something else and 
as our states continue to cut funding, is not one of the first 
things cut are the people who actually deal with social and 
emotional well-being?
    Mr. Gordon. You know, unfortunately in Cleveland and we 
have been facing budget cuts as, you know, for year after year 
for the last 5 years. We like many districts, try to keep those 
cuts far away from the direct classroom instruction and that 
meant our nurses, our social workers, our guidance counselors, 
and where we had the resources, our school psychologists.
    Those are the people who provide the social and emotional 
learning and wellness issues for our district. We have since 
gone beyond there and have had to cut instructional teachers as 
well and even 50 minutes out of the instructional day.
    We have restored much of that because of what has been done 
locally but issues like sequestration continue to make that a 
challenge for us to even provide the basic services without 
even attending to the needs that many of my children bring to 
school.
    Ms. Fudge. And so as we talk about things like reasonable 
gun safety et cetera and they keep talking about the mentally 
ill people who need mental help, how do we provide that help if 
we have cut all of the resources to give those people--those 
young people the kind of assistance--I don't need you to 
answer. I know the answer.
    Lastly, I just want to understand clearly that you do 
believe that that there are some good things in the ESEA. I 
don't call it No Child Left Behind because in my opinion, it 
has left many, too many children behind, but I do hope that as 
we go forward you can be more succinct with us in telling us 
what things you really do believe are important----
    Mr. Rokita [presiding]. The gentlewoman's time is expired.
    We will now hear from Mr. Thompson for 5 minutes.
    Ms. Fudge. Thank you so much, Mr. Chairman.
    Mr. Rokita. Thank you.
    Mr. Thompson. Thank you, Chairman.
    Thank you, gentleman, for being here. Incredibly important 
topic.
    I want to--my first question actually is really focused on 
teacher evaluation as a toll for accountability. It seems 
appropriate today, today is National Teacher Appreciation Day 
and in my professional career ``B.C.,'' before Congress, what 
we refer to as our evaluations were called ``appreciation 
reviews.''
    And so my question is how important is the teacher 
evaluation in recognizing and developing high-performing 
teachers to the accountability process and what should be 
considered in that process?
    Let me just preempt by saying I am not a fan of cookie 
cutters that come from Washington. One size doesn't fit all, 
and so I am really looking to draw on your expertise and 
experience to see what kind of things should go into that 
portfolio of evaluating, not just of identifying high-
performing teachers but moving our teachers and to high-
performance where they, you know, they may not be there quite 
yet.
    Mr. White?
    Mr. White. Thank you, Representative.
    First, I would say that the states are in very different 
situations on this. You have states that have hundreds of 
districts in collective bargaining agreements, states that have 
a small number of districts, and are right to work states. They 
have very different frameworks that each state is doing this 
in.
    But I think universally, they should consider observed 
performance in the classroom. They should include evidence of 
students' progress while being taught by that teacher.
    But at the same time, I think Congress should consider that 
teacher evaluation is not the only instrument we have in terms 
of ensuring the best teacher in every classroom.
    We train our teachers from the time many of them--most of 
them are 18 through the time that some of them become district 
superintendents, and we should be looking at allowing states 
the purview to develop not just teacher evaluation systems but 
entire education development or educator development systems 
stretching back into reforming our teacher preparation systems. 
Our states need the imprimatur from Congress to bring higher ed 
to the table and to help develop and change our teacher 
preparation schools.
    Mr. Thompson. Thank you.
    Dr. Richardson?
    Mr. Richardson. Congressman, my sense is in Minnesota we 
have been really focused on three core pieces.
    First is again, the observation of staff in terms of their 
work in the classroom and their work with parents and with 
other members within the community.
    Second core piece has been looking at the student 
performance and really trying to work through and look at what 
should be the suite of data that we gather around performance 
of students.
    I think the third piece has been taking a hard look at how 
are teachers interacting with the folks that they need to deal 
with on a regular basis.
    So we are looking at some 360 components to the evaluation 
where we are really focusing on how do students see them, how 
do parents see them in terms of their ability to communicate, 
in terms of their ability to provide the instruction that is 
beneficial.
    Mr. Thompson. Thank you.
    Mr. Gordon?
    Mr. Gordon. Thank you, Congressman.
    Excuse me. Like my peers, we are looking at some of the 
similar components in Cleveland. We have a rubric that we have 
collaboratively developed with our teachers' union where we 
gather evidence of performance through observation and other 
artifacts.
    We are a state that uses student data although we do not 
use a full suite of data in the state of Ohio. We use a single 
measure which is a concern of mine because tests--the tests we 
are using were not designed for those purposes. They weren't 
validated and made reliable for those purposes. So a suite of 
multiple measure would be more effective.
    And we need to make sure that we attend to the content 
knowledge in these professionals as well, which is often not as 
easily measured through the observational measure.
    In addition, I would say we have to focus it on the 
development of practice as well and so we have used our 22 
observational elements to drive professional development that 
if many of the teachers in our system are low in a particular 
element that that should tell us what we need to be supporting 
those teachers and their improvement in.
    Mr. Thompson. Mr. Given, please.
    Mr. Given. Let me reinforce a couple of points that have 
been made already but I think are really critically important.
    One is first brought up the value added that a teacher 
brings to an individual student, how that student is 
progressing during the year with the teacher I think is a--the 
critical element, not an absolute measure, but what are they 
adding from a value perspective to that student.
    Secondly, looking at the scope of things, so as Dr. 
Richardson pointed out, it is not just what they are teaching 
but how do they interact and how are they part of the school 
community as a whole.
    And then looking at the multiple measures and then perhaps 
more, most importantly, what are you doing with that 
evaluation? How are we training them differently based on the 
data we are getting from evaluation and what is going--what is 
the next step to make everyone better and to give that student 
a better experience?
    Mr. Thompson. Thank you.
    And I would just close my comments with, you know, we 
also--the competency of the supervisors who are doing those 
evaluations is--we need to improve that as well.
    Thank you, Chairman.
    Mr. Rokita. Thank you. The gentleman's time is expired.
    Mr. Polis is recognized for 5 minutes.
    Mr. Polis. Thank you.
    This is a very exciting hearing. I hope it provides a good 
start for our committee to do its important work in getting 
accountability right. I think it is important that many years 
hence from No Child Left Behind, 12 years hence, that we don't 
take a step backward, but we can certainly acknowledge that we 
need to make accountability work, improve transparency.
    I don't see this as fundamentally ideological or partisan. 
I think we have learned a lot of lessons about getting the 
accountability right and your testimony is very valuable in 
helping us construct the correct federal approach.
    My question is for Mr. Gordon. Congratulations on 
Cleveland's success, in particular the growth and successful 
charter schools in the last decade.
    I have seen results from one of your charter school 
networks, Breakthrough schools, which serve over 2,000 K-8 
students in nine schools. I understand that seven of them are 
authorized by your district and many of them share facilities 
with other schools.
    Breakthrough students, which are more than 97 percent 
minority, 85 percent low income, significantly outperformed 
Ohio public school students on tests at every grade level. 
Congratulations on that and some of your other great success 
stories.
    How have you been able to design an accountability system 
that supports quality schools regardless of their--whether they 
are run by the district or public charter schools in a fair and 
agnostic way?
    How have you been able to set up an accountability system 
that looks at all of the schools equally rather than singling 
out certain kinds of schools for more or less accountability?
    Mr. Gordon. Thank you, Congressman.
    We are in the process of doing that work now but we did it 
through legislation in Columbus. Ohio has had a traditional 
structure of charter versus the district and creating 
competition.
    We recognized in Cleveland that that was failing, that all 
we were doing was arguing about who owns children as opposed to 
whether they were learning.
    And so as part of the legislative package that we sought in 
Columbus with the support of our Republican Governor and 
bipartisan support, we actually have a commission of citizens 
of Cleveland representing our traditional public educators, our 
charter partners, business leaders, philanthropic leaders who 
are tasked with evaluating the performance of all of 
Cleveland's schools including our charter schools and reporting 
that to the community and doing so not only on the measures 
available by state but also by asking who they serve.
    So ensuring they serve representative populations, the 
attrition rates so that we can ensure that students who arrive 
at the school stay at those schools, and other factors such as 
that.
    Mr. Polis. And you are using the same criteria to evaluate 
schools regardless of whether they are run by the district or 
by charters, is that correct?
    Mr. Gordon. Yes, sir, that is correct.
    Mr. Polis. Thank you. And how has the growth of high-
performing charter schools like Breakthrough and others put 
positive pressure on your school district to improve other 
failing schools?
    Mr. Gordon. Congressman, again I think the big difference 
in Cleveland compared to all of Ohio is of the willingness for 
our two organizations, our two--for us to partner. So we are 
working hard to learn from our partners in the charter school 
world.
    They have also looked to us, for example to build out on 
their teacher evaluation system. It is in the shift from 
competition and to a collaborative desire to improve the 
quality of experience for children in Cleveland getting more 
kids in better seats regardless of who owns them.
    Mr. Polis. Thank you.
    And my final set of questions is for Mr. White.
    As you mentioned in your testimony, your accountability 
system is evolving to include not just grade level proficiency 
and graduation rates but also real world college and career 
attainment measures, dual enrollment credit, post-secondary 
enrollment; terrific measurements.
    We are going in a similar direction in Colorado. I want to 
ask how you see these additional requirements as consistent 
with a basic federal role in promoting accountability and 
transparency.
    Wouldn't setting statewide goals which include proficiency 
and growth allow the federal government to hold states 
accountable and in addition be able to build in-state 
measurements to build--meet your particular needs in Louisiana?
    Mr. White. Yes, and I think the federal government has 
already established rules regarding some basic parameters on 
issues like the graduation rate, for example, which has been a 
very positive step for this country. But that basic idea of 
parameters within which states can innovate is the appropriate 
framework for accountability in the reauthorization.
    Mr. Polis. Before the federal government got involved with 
the calculation of graduation rates, 12 different states were 
calculating in different ways and making it very difficult to 
compare?
    Mr. White. They were, but if you also look at how, then, 
states are using graduation rates in their accountability 
systems, it varies. In our state, we have a straight graduation 
rate, but we also have a graduation index that measures ACT, 
advanced placement, and dual enrollment credit. So there are 
basic parameters that should be set but within those parameters 
the states should be able to innovate.
    Mr. Polis. And I would also point out that states establish 
their own graduation requirements and in some states like mine, 
school districts actually have that prerogative. Thank you for 
your testimony
    I yield back.
    Mr. Rokita. I thank the gentleman.
    Mr. Guthrie is recognized for 5 minutes.
    Mr. Guthrie. Hey, thank you, Mr. Chairman.
    I appreciate the opportunity to be here, and I was in the 
state legislature before and in my home state we are actually 
going through some opportunities for the state commissioner now 
to take over some schools because some legislation I worked on 
and it was kind of inspired by No Child Left Behind. And I know 
there are things we have to fix in it, but certainly the goals 
that we close gaps and we improve all children--certainly what 
my predecessors before I was here had in mind.
    And New Orleans, I am kind of interested in that model. 
Obviously the people and school system, before, wanted kids to 
learn, but now there has been documented improvements since you 
were able to take over the school system, I understand, or the 
state interacted with the school system. What have you done 
different?
    I mean, if you could say this is the story of New Orleans 
and two or three points and say this is why we were able to get 
the achievements out of the same demographic of students that 
you didn't have before, and I know everybody wants them to do 
well, but you all were able to get the performance. What was 
different?
    Mr. White. I think two simple principles. Number one, big 
investments to make sure the absolute best educators are in 
every single classroom and number two, a governance structure 
that puts the resources at the school level, the power to 
choose how we address students' needs at the school level, and 
power in the hands of parents to choose the right school for 
them.
    That kind of structure drives innovation and innovation 
close to the child, I believe with everything we have seen, is 
100 percent necessary in order to solve the problems of those 
students who bring the greatest problems to our classrooms.
    Mr. Guthrie. How do you identify the highly effective 
teachers and make sure they were the ones? And did you fire 
teachers that you--did you have the ability to fire teachers 
that weren't highly effective?
    Mr. White. I think that starts with governance and every 
manager in that school system is fully empowered to make those 
decisions at the school level. Every single one of them is 
required to have a teacher evaluation system, but, you know, 
those parameters were defined by our state board to meet our 
needs and that governance was defined by our state board to 
meet our needs. When we are given that authority and given the 
mandates that came with the federal law, but given the 
authority to design a solution, we will do it.
    Mr. Guthrie. Did you replicate that in other parts of the 
state now? Are you----
    Mr. White. We are. We are creating similar zones of 
empowered schools in our most challenged areas most notably in 
Baton Rouge, the city and little bit to the north of New 
Orleans.
    Mr. Guthrie. Did--so I know that the system the kids are 
graduate--are doing better. Do you still have schools that 
are--parents have the choice to move kids within public schools 
within New Orleans, I understand.
    Are the schools just essentially abandoned now I mean are--
because parents have chosen to move them out or did you have to 
close schools or do you bring reinforcements in the schools?
    I mean how did you--I assume you haven't closed schools and 
so when you see parents make decisions to leave the school, 
what do you do to that school to change because you want the 
competition to go on and innovate that school instead of close 
it?
    Mr. White. That is why I say in my testimony that we should 
not start with the idea that there should be a rule for how you 
turn around every low performing school.
    We should start with the basic idea of, what is every 
resource at our disposal to ensure that every child who is in a 
struggling school has an alternative? And if that alternative 
means turning it around then we should require real 
transformation in turning it around.
    I believe we should require governance change when we are 
going to say that that school counts as part of the plan for a 
better seat for that child. We can no longer, you know, muddle 
around with year after year after year of prescriptive, 
corrective action from Baton Rouge, from Albany, from 
Washington, D.C., wherever it happens to be.
    We need to insist on real change. That starts with giving 
parents choice, and if we are going to say that a school is in 
a turnaround plan, then that means we need to change 
governance.
    Mr. Guthrie. We saw that at Frankfort, in Kentucky. That 
was, how long are you going to let it go before you know--we 
have the two cycles of if you fail and my idea was you don't go 
out looking at schools and point your finger, you find 
successful schools and how do you replicate that.
    That is what we are trying to figure out. So I am 
interested in how you have replicated that throughout 
Louisiana. Was it things in the No Child Left Behind Act that--
the things that you had to--got in your way or did it help you, 
did it hurt you, was it indifferent to you? And how can we 
improve it to make sure you have the ability to do things like 
you have done in New Orleans?
    Mr. White. I think two things. Number one, the corrective 
action regiment of prescribing year after year after year of 
planning needs to go. Second, we need to allow federal dollars 
to be able to spend--be spent by states longer-term.
    The answer to your question, on how do we turn around 
schools and it is not the only way, but how we do it is make 
investments in charter management organizations who themselves 
are operating schools in Louisiana so that they can scale.
    Those schools then become our home-grown turnaround 
solutions. They come in and they become the managers and the 
instructors within those schools that have our greatest 
challenges.
    So we are growing our own solution, but only because we can 
make long-term financial investments through state and 
philanthropic dollars in those organizations. We should be able 
to do the same thing with federal dollars.
    There is too much federal purchasing power for us not to be 
able to make long-term investments in what works and that would 
be an application of that in Louisiana.
    Mr. Guthrie. Thank you. Thank you. It is interesting to 
study more.
    Mr. Chairman, I yield back.
    Mr. Rokita. I thank the gentleman.
    Mrs. Davis is recognized for 5 minutes.
    Mrs. Davis. Thank you, Mr. Chairman.
    I wanted to turn to you, Mr. Gordon for a second. I know 
you spoke about the fact that districts need to set performance 
targets for student learning and you also mentioned that the 
federal government can require those targets to be set by 
districts. So help us a little more why is that necessary?
    Mr. Gordon. Congresswoman, it is not that I think that it 
is the only strategy, I think there are several.
    So for example, NAEP is a great tool that is already used 
across our country that would allow you to know whether Ohio is 
moving achievement for children in the same way that Louisiana 
is and then to differentiate your level of investment and 
support in our two states.
    What I think is necessary is that you can be assured that 
your investments in Cleveland are providing the same high-
quality level of education for the children in Cleveland that 
you also want to New Orleans.
    And I think without having some common expectations of us 
in the field whether it be in our districts, in our schools, or 
at our states, you don't have the confidence that your 
investment in my graduation rate is the same as the investment 
in New Orleans' graduation rate.
    You do that through some kind of common measures that 
allows you to assess whether that investment is delivering at 
your expectations.
    Mrs. Davis. Have and of course--and I am sorry I had to be 
out of the room for a while so I am just wondering, is there 
any--does anybody disagree with that on the panel?
    You basically agree that it is important to have those high 
expectations that are set that the districts obviously play a 
very important role in that. I was a school board member for 9 
years in San Diego so I understand that, but I think our 
concern obviously is what the federal role should be and 
whether it is in evaluation systems, making sure that they are 
done and, you know, where that role really lies. Anybody?
    Go ahead, sir.
    Mr. Gordon. Congresswoman, I would say our evaluation 
system is an example.
    Cleveland chose to create an evaluation system based on the 
evidence and research that is a higher bar than the rest of the 
state of Ohio. One of the challenges that I have as the 
superintendent in Cleveland is that my evaluators not only need 
to pass the credentialing that I set for my teachers, but they 
also have to pass the state of Ohio's prescribed credentialing 
even though we are using a higher bar.
    So my evaluators, my principals, and teacher evaluators are 
now taking two assessments to demonstrate their readiness. My 
dilemma is, do I reduce my expectations to the Ohio standards 
so that we only use one of credentialing since they can't be 
waived through flexibility against the criteria?
    So my position is that the federal government is making a 
significant investment in cities like mine, needs to be able to 
set expectations for performance, and then does need to be able 
to provide the level of flexibility that gets to me at the 
school level to do the work and where states are allowing that 
to happen, I think that is great. I think there are other 
states who get caught in complying their way to quality and 
that there needs to be some mechanism to ensure that their 
flexibility actually arrives at the school.
    Mrs. Davis. Is the measure for that though significant that 
the folks who are looking at that at the Department of Ed for 
example, I mean, how is that being translated in a way that you 
have that support and at the same time you are not overburdened 
by it?
    Mr. Gordon. In the way we are looking at it in Cleveland is 
we are trying to model what we have learned through some of the 
waivers in other states including Indiana and Michigan and some 
others.
    We are aggressively working with our state department to 
seek an innovation zone waiver that says we have sought 
legislation that allows us to do this. We set high 
accountability for ourselves, and we are asking again what I am 
asking of you--we have set targets that the state should expect 
of us and in exchange we are asking them to give us the freedom 
to do the work.
    Mrs. Davis. What else is missing?
    Mr. Gordon. You know, I think for us as a state, it really 
is--we have tackled the legislative barriers in our state. We 
have tackled the financial challenge through our community. We 
need the flexibility to move.
    I am trying, right now, to invest in 13 schools all of 
which are in some level of compliance through our state and the 
Department of Education, and I cannot reconcile the kinds of 
things that we know have worked in Indianapolis for example 
because they are contrary to the expectations of compliance in 
my state.
    Mrs. Davis. Okay.
    My time--did you--Mr. Richardson did you want to say 
something?
    Mr. Richardson. Congresswoman, I think again the key piece 
is going to be, can you set parameters that will give us clear 
direction and at the same time drive the actual implementation 
down to the district--into the building level?
    And that is the devil is in the details I think in the 
process, but if you can create that then I think we have the 
combination that we are going to need.
    You heard flexibility from I think everybody at this table. 
We need to have that flexibility but you have to set--which 
means you have to set these parameters in a way that doesn't 
end up having us mired in the bureaucracy.
    Mr. Rokita. The gentlewoman's time is expired.
    Mrs. Davis. Thank you.
    Mr. Rokita. We will now hear from Dr. Heck for 5 minutes.
    Mr. Heck. Thank you, Mr. Chairman.
    Thank all of you for being here. You know, it seems as we--
I represent Nevada. In Nevada, the school districts are set up 
by counties. So each one of the 17 counties is its own school 
district, which is unique I think and presents certain 
challenges because we have urban, rural, and we actually have 
frontier counties.
    So obviously every school district has some unique needs. 
Clark County school District is the fifth largest school 
district in the country with over 300,000 students.
    And it seems as we talk about accountability the rate 
limiting factor where the federal government always tries to 
hold people accountable is for funding. That is the hammer for 
accountability.
    And Mr. White, in your written statement you talk about--
you mentioned that states that can't achieve performance goals 
entailed in their plans should receive fewer funds, yet some 
argue that the answer to the inability to achieve those goals 
is a lack of funding and that perhaps they need more funds to 
actually achieve the goals.
    And in your response to my colleague, Mr. Guthrie's 
question you had stated that big investments--you made a big 
investments to make sure the best teachers were in the 
classroom.
    So how do you answer the question where you made it big 
investments--what were those big investments that put those 
best teachers in the classrooms and how do you answer the 
charge that well if you don't meet the goals that you may 
actually need more funding to meet your goals.
    Mr. White. I think as a matter of policy having worked at 
the state and district level, I can tell you that one of the 
unfortunate consequences of No Child Left Behind is that it 
sent billions of dollars toward failing enterprises, and I 
think for no organization is that strategy a good one.
    I think we need to, in part, predicate federal dollars on 
states doing what they say they are going to accomplish for 
children. I think the reciprocation for that is for the federal 
government to get out of the business of tying federal dollars 
to how they think we should behave every day.
    It has the effect of creating dozens and dozens of 
different little planning processes, which is really what 
unfortunately the spending side of No Child Left Behind 
constitutes. There should be one plan, one simple plan from 
every state in response to one simple set of parameters from 
the federal government.
    With respect to the question of does that then deprive the 
most disadvantaged? No, I would actually say that what it does 
is it causes the organizations that are responsible for the 
struggles to actually focus their resources where they matter 
most.
    The reality is if we look at schools today, the sad fact is 
they are predominately funded on a teacher's salary model which 
preserves status quo rather than drives the resources to the 
lowest-income communities.
    I can guarantee you that the best thing the federal 
government can do would be to send a wake-up notice to people 
who still use that model by saying that federal dollars will 
now be predicated on outcomes and you would see real policy 
changes in that regard.
    Mr. Heck. I appreciate that.
    Dr. Richardson, in your statement you mentioned that the 
draconian sanctions placed on schools and districts that are 
identified as ``In need of improvement,'' which I would assume 
therefore cannot meet performance goals financially punishes 
those schools and the students that face the greatest 
challenges. Hearing what Mr. White just mentioned, how do you 
rectify the idea of funding related to performance?
    Mr. Richardson. I think in terms of looking at the needs of 
individual school districts in the needs of individual schools 
that some of the structure that is currently in place so with 
No Child Left Behind especially in terms of the sanctions which 
actually take dollars away from a building who is in the midst 
of their own school improvement plan to increase the quality 
and performance at that time makes it extremely difficult for 
them to move forward.
    And I think the issue and actually I think Mr. White shared 
it is the idea that to some extent you are going to have to 
push dollars in to provide additional high-quality staff, to 
provide additional programming options to meet the need. What 
we found instead I think with the initial iteration with No 
Child Left Behind is that we were constantly drawing dollars 
away from our neediest schools at a time when they needed those 
dollars most.
    Mr. Heck. I see.
    Mr. Gordon, in your statement you mentioned how the 
Department of Education waiver initiative gave you more 
flexibility to productively spend the federal Title I funds on 
effective school improvement measures, and then you mentioned 
that there is still a need for additional flexibility to allow 
superintendents like yourself to better tackle academic and 
capacity problems in the most difficult Title I schools. What 
are some of the flexibility parameters that you would like to 
see?
    Mr. Gordon. I would say the single most apparent example 
would be that I absolutely agree that we need to tackle our 
lowest schools and in our state we have the lowest 5 percent, 
which most of them are in our eight urban communities meaning 
that two-thirds of my district gets identified in one swipe.
    I do not have the ability to say where I am going to start 
the work in Cleveland. So as one example we had improved a 
school from an F school in Ohio to a C school only to have it 
identified as one of the single lowest performing schools in 
the state with no opportunity for me to say I have got this 
school moving, I really need to move these resources to another 
place where the school is actually trending backward.
    It is that kind of flexibility that allows my state and the 
district to interact together to determine where are we going 
to use these resources most effectively.
    Mr. Heck. Thank you.
    Mr. Gordon. Thank you.
    Mr. Heck. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Rokita. The gentleman's time is expired.
    We will now hear from Mr. Tierney for 5 minutes.
    Mr. Tierney. Well, thank you.
    This has been an enlightening conversation. I thank all of 
you for your testimony, thoughtfulness, and my colleagues as 
well.
    You know we look at this all the time about the federal 
involvement sliding back what 30 or 40 years ago with 
traditional mandates that states had to educate kids that were 
minorities or challenged economically and then with 
disabilities states could either take the money the federal 
government gave them and live up to the standards or not take 
the money on that, but we have always had this tension between 
what is a right accountability standard and how much 
flexibility and whatever and let us be serious here.
    If the states had done their job, there would be no need 
for the federal government to come in. So it is hard for some 
of us to say well just give the money to the states and let 
them have flexibility because they will fix the mess they got 
themselves into. It doesn't make a lot of sense on that.
    So I think we have to find a way to deal with that tension. 
And my feeling that only what a small percentage of money is 
coming from the federal government really mostly your money is 
your own resources, state and local.
    We have had a lot of great particular questions. I am going 
to step back a little on this and ask a question. We have had a 
lot of evidence lately and a lot of science telling us of the 
positive impact that pre-K education can have.
    That if we can really bring kids to school who have the 
right nutrition who had all of their health concerns addressed, 
whose parents were helped to make sure that they were able to 
raise these children, get them ready for school and reading and 
language and all of that, that would have a positive impact.
    That would lower the dropout rate, increase the graduation 
rate, put less or fewer kids into special ed and all of that. 
So if we take a premise that there is going to be a hard time 
getting any more money from the federal government down and we 
have a very limited amount of money, do any of you think that 
it would be wise to have that money go toward a pre-K program 
and leave K-12 to the states and local communities or not or 
should it somehow be split?
    What would be the impact of that? Anybody can start. I 
would like to hear from all four of you.
    Mr. White?
    Mr. White. Thank you, Representative.
    I am sure I--my opinion is shared that we could always use 
more money, but I would say that my finding has been that 
states use their pre-K dollars be they in childcare, be they in 
pre-kindergarten, or be they in Head Start in generally 
inefficient ways because the system of early childhood 
education that exists in most states is so fragmented and that 
it almost guarantees that kids fall through the cracks.
    States can, through their own statutes and regulations, 
unify to use their funds much more efficiently than is 
predominately the case, and I certainly am working on that in 
our state and urge other states to do that as well.
    Mr. Tierney. And would they have enough money for a really 
good pre-K program without any--deviating money from the K-12 
federal resources to the state resources?
    Mr. White. Again, certainly I would like our own state 
legislation to levy dollars for purposes of early childhood but 
we are not using our current dollars as efficiently as we can 
and it has to be step one.
    Mr. Tierney. I understand. And I guess I will extract my 
answer out of that.
    Mr. Richardson, go ahead.
    Mr. Richardson. Congressman, I think as we are working with 
it in Minnesota, right now we are currently looking at the 
state stepping up and increasing the level of funding in terms 
of preschool programming.
    I think one of the key issues I think that we are 
discussing right now is what is the accountability in terms of 
the preschool program in terms of how those dollars are going 
to flow to various preschool providers and really thinking 
about does that need to be structured in a way that again makes 
sure that we have the kind of accountability we need or is it 
going to be laid out in a voucher strategy where basically 
parents can take the dollars and go wherever they want to go.
    So I think a big part of this is going to be, I think, 
states stepping up to do this piece but I think also they have 
to do it with some real structure and some accountability at 
that level.
    Mr. Tierney. I guess what I was trying to ask and 
apparently didn't do too well on that is would you get better 
bang for your buck in the federal money if you just focused all 
of that on pre-K and said we are going to help, you know, 
states and local communities get the best pre-K program they 
can possibly have and leave states and local communities to 
their own devices for K-12.
    Then you have all of the flexibility that you want. You 
wouldn't have as much of a burden on your pre-K and you go 
about your business.
    Mr. Gordon. Congressman, I would say you would get some 
bang for your buck but not better bang for your buck. We know 
the impact of high-quality preschool education, but it is the 
first step, and then you need booster shots essentially along 
the way.
    We know that up to half of the difference between urban 
student performance and suburban is the opportunity gap; what 
happens in 12 summers or the extended learning time, and those 
things don't stop right after pre-K or kindergarten.
    So you would get some immediate growth but then there is 
still the responsibility to have the right level of resources 
and time people and resources to ensure that that growth is 
sustained over time.
    Mr. Tierney. Thank you.
    Mr. Given?
    Mr. Given. We don't play in pre-K directly. That is not 
someplace that we have a lot of experience. We certainly echo 
the need for those resources in other places.
    The high school dropout rate, for example, if we start 
taking dollars and putting them all into pre-K and we leave 
this generation of kids that are going to graduate or not 
graduate from high school alone and not give them the extra 
support they need, that is problematic because you have got a 
12-year waiting time for those kindergartners to get into 12th 
grade, and what are we going to do with the kids that are 
already in first grade. So I think that there is that there 
is----
    Mr. Tierney. I guess the premise would be that you would 
have all of the money you know----
    Mr. Rokita. The gentleman's time is expired.
    Mr. Tierney. I understand that. I ask the gentleman for 30 
seconds if----
    Mr. Rokita. The gentleman's time is expired. We will now 
hear from Dr. Bucshon for 5 minutes.
    Mr. Tierney. You guys are nuts, you know it?
    Mr. Bucshon. Thank you.
    Thank you, Mr. Chairman.
    This--my question will be a little bit off the beaten path, 
but it has to do with finances and generated by an email that I 
received from a person who works as a clerical person in a 
school district in my district in Indiana.
    And I will direct this to Dr. Richardson and to Mr. Gordon. 
Have you had discussions about compliance with the Affordable 
Care Act and how that may have an effect on your school 
district?
    Dr. Richardson?
    Mr. Richardson. Congressman, yes, we have, and I think 
districts across our state and I am guessing across the 
country, are having those same discussions.
    I think the key pieces we are looking at right now are 
really around determining who is eligible for insurance and 
where we thought initially it seemed very logical that it would 
be full-time employees and employees that have jobs over 20 
hours per week.
    What we are now finding is, as people are beginning to look 
at the nuances they are telling us well, that this person works 
15 hours a week but then they also coach in an extracurricular 
activity or they take tickets or they do other pieces, what we 
are hearing is that those are going to be combined together to 
determine if that individual is eligible for insurance 
benefits.
    And so what I think we are seeing is the potential of 
significantly more individuals being eligible for insurance 
than what we thought, and I think for districts across the 
country that is going to mean significantly more dollars that 
are going into paying those benefits for the employee as part 
of the Affordable Care Act.
    Mr. Bucshon. Mr. Gordon?
    Mr. Gordon. Thank you, Congressman.
    We too have been looking at this carefully. What we have 
found is we are a self-insured organization because of our 
size. We have a very veteran staff.
    What we have found is that our health care costs have been 
escalating dramatically even prior to the health care act. So 
where we thought we would see impact on projections of cost, we 
did not.
    What we are seeing, though, is that there are limits then 
on how much we can ask our member employees to contribute that 
will have impacts on how we negotiate that the share of that 
escalating cost.
    That is a concern for us, and it is really going to lead 
ultimately in plan designed change. We have a very wealthy 
health care package after years of negotiating and it is going 
to mean really redesigning that health care package in a way 
that remains sustainable for us without reaching some of the 
affordability caps for members.
    Mr. Bucshon. What percentage so to speak of your employees 
that work for your district do you currently provide insurance 
coverage for?
    Dr. Richardson?
    Mr. Richardson. I would say somewhere in the neighborhood 
of 80 to 85 percent of employees.
    Mr. Bucshon. Okay.
    Mr. Gordon?
    Mr. Gordon. Nearly all and it is because we have all full-
time employees or nearly all full-time employees.
    Mr. Bucshon. Okay, because let me give you the example that 
I got from an email from a school district. Their district is a 
small district. They have about--they have 52 clerical-type 
people that were not, you know, not being provided insurance, 
and what has happened is they have all had their hours cut to 
28 hours per week.
    So I am just wondering, you know, if this is--I think this 
is going to be broad-spread across a lot of school districts 
around the country. I am very concerned about that for a couple 
of reasons.
    Number one, as a physician, I think everyone needs to have 
access to quality affordable health care in a timely manner, 
but my concern is is that the people that we are trying to help 
may actually be disadvantaged because of this.
    The City of Long Beach, California for example has recently 
reported in the Los Angeles Times I think it was--something 
like 16,000 part-time employees--are cutting all of those 
people to less than 30 hours based on affordability. So do you 
have any projections about what the costs maybe to your 
district just off the top of your head?
    I will start with Mr. Gordon.
    Mr. Gordon. I am sorry, I don't today.
    Mr. Bucshon. Okay.
    Dr. Richardson?
    Mr. Richardson. I don't think I am in that position at this 
point to give you a number. And I think one of the things, 
Congressman, is the fact that I don't see us necessarily 
reducing anybody's hours, but what I do see is those people 
that have again these multiple positions where we had positions 
would never be part of this because of their extremely part-
time nature are now going to be counted together with other 
parts of positions to create jobs that are over 30 hours. I 
think for the most part though we will keep everybody in place 
at the hours they are at.
    Mr. Bucshon. Okay. Thank you.
    I yield back.
    Mr. Richardson. Thank you.
    Mr. Rokita. Thank the gentleman.
    Mrs. Davis recognized for 5 minutes. Excuse me--
correction--excuse me, Ms. Wilson for 5 minutes.
    Ms. Wilson. Thank you. Thank you Mr. Chair.
    As a former teacher, school principal, and school board 
member, I can personally attest to the importance of a strong 
federal role in education.
    As local districts face cutbacks and financial hardships 
under the sequester this is the case more than ever. We need 
federal support to ensure equity for all children and equity in 
student opportunity.
    There is nothing that we should call an achievement gap. It 
is call--it should be called an opportunity gap because that is 
where the gap is and if the federal government were not 
involved in education, I would not have ever gotten a new 
school book where someone else had answered the math problems--
that I had to erase the answers.
    And it appears as each year we put our poor little children 
in petri dishes, and we use them as experiments when we know 
that all of this leads to just money, privatization; we just 
experiment with them.
    And I think as we wrestle with these issues I hope we can 
categorically reject vouchers as a way forward. Vouchers, 
simply put, they gut our public education system, and I think 
we should maintain our support for free, quality, public 
education.
    Mr. Gordon, in your testimony you said federal 
accountability for the performance of the student subgroups is 
essential. Why is the federal role in education so important 
and what federal parameters would--should we preserve in the 
new ESEA?
    Mr. Gordon. Thank you, Congresswoman.
    I would argue that subgroups are critical, actually, 
because of my experience outside of urban education. Prior to 
coming to Cleveland I taught in an affluent suburban school 
district in the Columbus, Ohio area where we had very low 
numbers of minority children, very low numbers of children 
whose first language was not English, and significantly lower 
numbers of children with special needs.
    In that district, we were able to meet Adequate Yearly 
Progress standards at the time and our states of local report 
carding whether or not those children performed. Which means 
that in that system you often could and did lose minority 
children, children who don't speak English as a primary 
language, and children at risk.
    Now I picked that up and bring it to the city that is where 
my passion is and where my work is; it is a lot more 
transparent. We are more visible about it. That needs to happen 
in Ohio's smallest and most homogenous districts in the same 
way that it is happening in Cleveland.
    There is more movement to be done in Cleveland. We have a 
lot further to go, but I know the children who were essentially 
vanished in systems that--where they were washed out because of 
not paying close enough attention to the N-size of the 
subgroups.
    Ms. Wilson. Thank you.
    This is for Mr. White.
    Prior to the federal requirements of No Child Left Behind, 
only two states included student subgroups in their 
accountability system. Federal requirements changed that.
    Doesn't history tell us that federal policy should still 
set guidelines around the state accountability systems so that 
they serve the needs of all students?
    Don't you sometimes face pressure to serve adults' 
interests rather than student interests and doesn't federal 
policy sometimes give you momentum to do the right thing for 
the students?
    Mr. White. I think the federal government should absolutely 
set parameters within which states should plan.
    I think the unfortunate consequence of the federal 
government trying to achieve so many different things for so 
many different people is that we create so many different 
categories and so many different rules and regulations and that 
out of the best of intentions we end up confusing schools who 
don't really think about their kids in categories, they think 
about them as individual human beings and they plan around 
their individual needs.
    So we have maintained subgroups in our accountability 
system. We support systems that protect the rights of the most 
disadvantaged, but we need a simple system from the federal 
government that allows schools to plan around the kids they 
know and love, and not around a bunch of rules and red tape.
    Ms. Wilson. This is for everyone. High-stakes testing has 
held----
    Mr. Rokita. The gentlewoman's time has expired.
    Mr. Loebsack is recognized for 5 minutes.
    Mr. Loebsack. Thank you, Mr. Chair.
    And I want to thank the witnesses for being here today. 
When you are near the end of the question time you get to hear 
a lot from a lot of folks and I get to learn a lot. So I really 
appreciate not only the questions, but especially the answers 
from all of you today.
    I have been in office since January 2007. I think it is 
fair to say that many of us in this body and certainly a whole 
lot of folks from around the country including I am sure all of 
you here, have grown pretty weary of yet again reassessing No 
Child Left Behind, yet again trying to reauthorize ESEA.
    It is clearly time and we have got to do it, but we have 
got to do it in the right way and I really appreciate in 
particular Dr. Richardson, you know, and what you said you 
summed it up but--and we have been talking sort of around how 
you summed it up in trying to delve a little bit more deeply 
into the different issues when you said that the parameters 
have to be right at the federal level but the flexibility has 
to be right at the state and local level.
    I don't think anybody would disagree with that. I don't 
think anybody in this room would disagree with that. The big 
disagreement and the big question comes as to how much we are 
going to be doing at the federal level, what those parameters 
are going to be, how much flexibility there is going to be at 
the state and local level.
    That is really the question. I think it is the essence of 
what we are trying to figure out today, and so I am looking 
forward to continuing to work with folks on both sides of the 
aisle to try to get this right, to try to get the balance 
right.
    And just so you know, before I decided to run for office 
and when I ran in 2006, some years prior to that, I had been 
hearing about No Child Left Behind because my wife taught 
second grade for over 30 years.
    So she and her friends had my ear quite a bit as you might 
imagine about all of the problems with No Child Left Behind. I 
am one of those who is a strong proponent of looking at the 
whole child. We have already talked a little bit about that 
today.
    I think that we have clearly got a--we have to focus on 
academic achievement; there is no question about that. I taught 
at a college for 24 years. I wanted those students to be ready 
when they came to that college where I taught and if they 
weren't, I wasn't very happy as you might imagine.
    The fewer the remedial courses I think at the college level 
whether it is 2-year or 4-year, whatever, the better it is, but 
academic achievement we all know that is critical but we also 
know that students cannot be successful without the proper 
nonacademic supports.
    Recent tragedies I think at Sandy Hook and other places 
really only reinforce the need to strengthen access to mental 
health, other nonacademic support personnel, including 
counselors, nurses, psychologists, social workers, but very 
little attention has been paid.
    It is a resource issue, I get that. I understand that, but 
I think we have to have the policies right too. I am going to 
be introducing a bill this week that is going to focus on these 
nonacademic supports.
    Mr. Gordon, you mentioned, again, I would just like to go 
back, you already did respond to some extent, but you mentioned 
the Cleveland School District's focus on conditions for 
learning surveys, social and emotional learning curriculum, the 
tangible successes that you had in these areas. Can you provide 
a little more detail on specifically those successes?
    Mr. Gordon. Congressman, thank you.
    First of all, I would say that any school district or 
school that is looking at these non-academic supports needs to 
think of them in the context of academics and so one of the big 
disconnects that I think you see around the country is those of 
us who think of them as a separate.
    In Cleveland, we think of them as integrated together. We 
have a promoting alternative thinking strategy curriculum that 
we teach to all of our children that is a literacy-based 
curriculum so that we are embedding it within academics.
    We put planning centers in place to reduce discipline 
incidences. We have reduced instances over 48 percent over the 
last 4 years. We have cut our suspensions in half. We have 
reduced our expulsions by 11 percent.
    We think about the student support team so that we reduce 
the number of kids who are over-identified into special 
education services, so while we are still too high, our numbers 
are going down, not up.
    But we do it all in service of the research and evidence 
and programs that are connected to kids to demonstrate these 
kinds of behaviors which can be measured and also demonstrate 
higher levels of literacy.
    So we aren't out there simply saying ``let's implement a 
character education program so everybody feels better about 
themselves,'' we are actually saying that we need to implement 
an alternative thinking strategy that allows kids to self-
regulate, self-manage so that they can actually access content, 
so that they can problem solve without getting frustrated, 
those sorts of things. So those would be some examples.
    Mr. Loebsack. Well, thank you. And I think that we can 
certainly use those as models. Again, not to be overly 
prescriptive at the federal level with however we reauthorize 
ESEA, hopefully sooner rather than later.
    But nonetheless, I think it is important that when all of 
us go to our districts and we talk to folks like you, not just 
here in Washington, D.C., but on the ground, that we listen to 
what you have to say and that we take advantage of your success 
stories.
    So thank you very much to all of you. I appreciate it. 
Thank you.
    Thank you, Mr. Chairman.
    Mr. Rokita. Gentleman's time is expired.
    Mr. Scott is recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    I want to thank our witnesses. This has been a very 
informative hearing.
    When we passed No Child Left Behind many years ago, one of 
the things that we insisted was that people graduate from high 
school, and if you allow a high dropout rate you have a little 
perverse incentive for that because people are dropping out 
from the bottom, the more people dropout, the higher your 
average is.
    If you don't have a factor punishing school districts for a 
high dropout rate, you actually give them an incentive to allow 
the dropout rate to creep up.
    Unfortunately we gave a lot of flexibility to the 
localities on how they measured dropouts, and we found that 
even the dropouts, some dropout factories with 50 percent 
dropout rates, were achieving AYP, so it has been a complete 
disaster. Would any of our witnesses give us a recommendation 
on how we can accurately count and set reasonable goals for 
graduation rates?
    Mr. White. Well, I think and certainly one thing that I 
know a lot of us have learned through our recent interactions 
with the Department of Education that it starts with how good 
the parameters are within which you can have the discussion.
    I believe that with regard to graduation it has to be 
starting with the states at that given moment in time. On the 
other hand, the measure that the federal government has rightly 
put in place of regarding a consistent cohort graduation rate 
has over--by and large taken care of the problem you are 
discussing regarding the dropout measure.
    And so if a parameter is that the accountability system 
must include the federally-approved cohort graduation rate and 
that is the starting point of the discussion among other 
starting points, then that is a positive step.
    Mr. Scott. And setting a reasonable goal?
    Mr. White. Yes, there should be a reasonable goal, and as I 
said, then you get into what are the consequences for not 
achieving the goal, and I think that those consequences start 
with a simple plan in the instances where the--it is not being 
achieved.
    The dropout factories, we cannot correct through reams of 
corrective action out of D.C. A simple plan in terms of how we 
assure every one of those families has a better alternative is 
where we should start.
    Mr. Scott. One of the--if you talk about responses to 
failure, one of the things I think is the least effective is 
the school choice thing, where if a school is failing, students 
have the choice to go somewhere else.
    It seems to me that that doesn't help; the ones that are 
leaving aren't the ones who were having trouble, the ones that 
are left behind still have trouble and in fact, if every 
student made a rational choice they all ought to get up and go, 
and there would be nobody in the school.
    Mr. White, you have indicated that you want to stop funding 
failing schools. Wouldn't it make more sense to provide 
actually more funding with a strategy--to help fund a strategy 
to turn it around?
    Mr. White. First, with respect to the overall problem of 
the school choice implementation, I agree with you that it was 
a flawed implementation.
    And I would advocate and I say this with great deference 
and respect to my colleagues and districts, that the problem 
with the school choice framework as it was implemented is that 
it gave those who govern--the problem in the first place--the 
power to actually be the ones to remedy it by essentially 
driving themselves out of business or sort of contradicting 
their own internal politics.
    I think that was a mistake. States should have a basic plan 
for how any child who is consigned to a struggling school has 
an alternative. We should use all means at our disposal 
including using more current alternatives, more efficiently and 
enrolling more kids in those alternatives. I don't think that a 
plan that consigns kids to just waste away in a struggling 
school is a plan for success.
    Mr. Scott. And yes, but if you cut the funding for the 
school they are worse off and the ones that get to sneak out 
the back door are those that are politically sophisticated and 
you talked about politics--it helps the politics of the elected 
school board because the people who are presenting the most 
pressure to them all of a sudden can get out the back door.
    It makes more sense and in fact--those who are politically 
powerful try to figure a way to get out of the school rather 
than going to the school board and saying my children are at 
the school you better fix it and those--the ones that have the 
influence to really move the school board sneak away, and you 
are relegated with a bunch of people with no political 
influence in a school if you cut the funding with less money.
    Mr. White. Two quick responses. Number one, it has not been 
my experience that those who are politically disconnected don't 
take up choice opportunities when given it.
    In New Orleans, our population is 96 free and reduced lunch 
and every single parent participates in a city-wide school 
choice process every year.
    Secondly, I would say that the real systemic underfunding 
doesn't come from federal dollars, it comes from local and 
state dollars where we fund based on the salaries of 
inexperienced teachers and low income communities, experienced 
teachers in high income communities, and if we really want to 
change that, we need to give states and districts a better 
mandate, a better impetus to change than we have given them and 
I think that starts with money.
    Mr. Rokita. Thank you.
    The gentleman's time is expired.
    Ms. Bonamici is recognized for 5 minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    Thank you all for your testimony.
    As a member of Congress and a former state legislator and a 
public school parent, which I was for more years than I have 
been in elected office, I have spoken for many years with 
parents, students, teachers, administrators, about these issues 
and there seemed to be two sort of common themes of concern 
that I have heard; and one of them is about budget; and I 
appreciate the conversations we have had about that and I truly 
urge all of my colleagues to work on getting rid of the 
sequestration cuts that are affecting Headstart, IDEA, Title I, 
Title II.
    Our local budgets are not able to make up those gaps so 
that is one concern. And the other seemed concerned that I hear 
is about the high-stakes testing or teaching to the test. When 
this happens is the focus on the teaching to the test subjects 
that help students get a well-rounded education like arts, 
music, PE, social studies, second languages all get left 
behind, and I chose those words carefully.
    Dr. Richardson, I agree with your analysis about the flaws 
of No Child Left Behind including that the focus on what is 
tested at the expense of other important subjects, the reliance 
on a test given at a single point, and I have heard again and 
again there are too many summative assessments and not enough 
formative assessments and also the draconian sanctions.
    So thank you for recognizing those problems. I have to say 
as someone who sees strong public education is key to economic 
development, I have never heard a business recruiter say they 
need a good test taker.
    They want people who can communicate. They want 
collaborators. They want problem solvers, and they want 
innovators. So what changes do we need to make to the ESEA 
because it is important that we reauthorize this, absolutely 
critical?
    What changes do we need to make to ensure that students get 
that well-rounded education with all of the subjects that help 
them become creative, critical thinkers? That is who we need 
for the next generation of entrepreneurs and innovators. So I 
would like to hear your thoughts on that.
    Mr. Richardson. Congresswoman, I think--and I appreciate 
your comments. Thank you very much.
    I think that the real focus, I think, for us has been that 
it has, you know, ESEA has basically really focused instruction 
on reading and mathematics to the detriment of really all of 
those other areas, and again, we have not touched the concept 
of all of the soft skills that are part of the 21st century 
understanding.
    My sense is that's where if the parameter says, at state 
and local level create a suite of assessments that makes sense 
in terms of not only addressing a look at mathematics and 
reading but also looks at the other areas.
    And also look at, how are we going to be accountable for 
making sure that students do understand collaborative skills, 
teamwork skills, and whatever as part of that process.
    I don't think that can be driven beyond the parameter level 
at the federal level. That needs to be driven at the state and 
local level to make it work, and again, as I said before, the 
devil is in the details. You have to set the parameters that 
are going to make sense that gives state and local officials 
the ability to get the work done.
    Ms. Bonamici. Right. We talked about dropout rates. We have 
the data that shows that students who study art are more 
involved in--or art or drama--are better readers, students who 
are in music programs, better at math and they are engaged, 
they are less likely to drop out.
    So I want to hear from the others about what changes do we 
need to make to make sure that we have these critical thinkers 
that we need for our global marketplace.
    Mr. White. I believe we have to start rooting our long-term 
vision regarding accountability not just in proficiency but 
also in real-world outcomes. The--beyond that general 
parameter, a rigorous accountability regarding real-world 
outcomes, career attainment and college attainment--actual 
attainment--not just an indicator but actually attainment.
    Beyond that, I think the federal government has actually 
very limited power to do it well because I don't think we are 
talking about things that the federal government can mandate 
people to do well.
    The federal government should set parameters that allow for 
measurement of real-world success attainment and then allow 
states and educators to build the systems that achieve those 
accountabilities.
    Ms. Bonamici. Mr. Gordon?
    Mr. Gordon. I would say that I agree with that largely. I 
would say that what the federal government can do is look at 
how using these strategies, the arts, the sciences, real-world 
experiences, are impacting more simple measures of reading and 
mathematics and that is what I think NAEP already allows us to 
do.
    I would also say that we have to call into question whether 
we are actually seeing the performance we needed from children 
prior to accountability because many people who argue that 
accountability systems have caused us to only teach reading and 
math are the same people that are in my system where we were 
failing large numbers of children even on reading and math 
before the assessments occurred. So we can't let it be an 
excuse-maker. It has to be about thinking about the next level 
of investment.
    Mr. Rokita. Thank you.
    The gentlewoman's time is expired.
    Ms. Bonamici. My time is expired.
    Thank you, Mr. Chairman.
    Mr. Rokita. Thank you.
    I would like to again thank the witnesses for taking the 
time to testify to the committee today. At this time I would 
like to recognize Mr. Miller for closing remarks.
    Mr. Miller. Thank you.
    First of all, let me just say thank you, thank you because 
I think that you have shown us that if we look deep enough 
here--there's a pony in there somewhere, in terms of the 
reauthorization. I am very optimistic because I think that this 
panel has delineated for the members this bifurcated role; 
there is a state and local role and there is our role.
    And I think you have demonstrated that is not an 
abandonment of traditional roles or traditional concerns and if 
we have the right accountability system, we will be able to see 
what you are doing and more importantly your parents and 
community leaders and others will be able to see what you are 
doing.
    And, you know, I am very optimistic about this moment that 
we are in, and a lot of it is because of the things that you 
have done in your areas, but I also represent a very diverse 
congressional district with respect to school districts.
    I have the highest performing schools in the state and I 
have the lowest performing elementary schools in the state and 
high schools, but they are making dramatic changes in my 
poorest performing areas. And seeing the empowerment of parents 
who can pick and choose where their kids are going to go and 
the reasons they want to go there.
    Somebody said they are poor, they are not stupid, and they 
are making these choices and from the poorest most violent 
neighborhood in my district they are going to graduate school 
and they are also getting shot. So that is the dichotomy, but 
it is happening and in fact, these parents are continuing to 
make these choices.
    Just a couple points. One is, we talk about college or 
career ready and you have I think made the point that this is a 
seamless process. You don't know where you are going to end up 
when you are in 11th grade.
    I just met with the manufacturers--I come from a 
manufacturing district. It is chemicals, it is refineries, it 
is steel and the fact is now they are, you know, they are in 
joint ventures with colleges, with the state universities, with 
community colleges, and kids move back and forth and they are 
looking at credentials and 2-year degrees and back and forth.
    So I think we have got to clear the air about, that this is 
not one or the other. The other one is the idea that you are 
using ACT as a confirmation of what is going on in the schools 
and how many students are progressing there.
    I mean if you are going to try to get into college you have 
got to be able to pass the entrance examine or score well on 
that. I think that is encouraging. That mix of measurements 
that you have talked about at different levels; at the school 
level, at the district level, I think can help develop that 
accountability system in terms of when people look at what is 
happening in Cleveland or what is happening in New Orleans or 
in Louisiana.
    I also like of course what Louisiana does in terms of 
following your teacher graduates--from your schools of 
education who are coming to teach and how they are doing.
    It appears that each of you are suggesting that the data 
that has been driven by No Child Left Behind has in fact turned 
out to be very valuable in how you structure your resources and 
deploy your resources in schools and the mix of schools and the 
portfolios that you want to develop. Is that--would that--would 
I be correct in making that assessment?
    It is not that the data is perfect, but this is data we 
haven't had in real time to some extent, you know, before No 
Child Left Behind or certainly it was hidden. Is there any 
disagreement on that? Or refining?
    Mr. White. Only that I think that states have taken that 
imprimatur and are now frankly well ahead of the NCLB framework 
and they are developing new sources of data that we should use 
in the next framework.
    Mr. Miller. Yes, I wouldn't challenge that at all. It was 
pretty primitive what we were doing. You know, I was also very 
disgruntled with--you know, people came in here the minute 
after it was signed and we said we want 100 percent of students 
to be proficient in 2014 and they were waving the white flag 
and saying we can't do that.
    When I look at their districts, they were 7 percent 
proficient. I said come back and see me when you are at 60 
percent proficient and tell me what you can or cannot do but 
don't, you know, don't concede at the beginning.
    And I think what we have seen through the use of 
portfolios, the advancement of technology, the additional 
professional development that we see in various districts 
around is that we now have the ability to really develop those 
resources and we don't have to suffer those consequences and we 
can do that in real time in terms of how these teachers are 
doing.
    And again, I see it where schools that were a dump for 20 
years are now becoming--are becoming really high performing and 
they are also becoming high-performing for the community. There 
are as many parents on campus in 24 hours as there are students 
in some instances in the schools and they have really become a 
learning environment for the entire community about their 
children, about themselves, many acquiring English language 
skills.
    So I just think this is an amazing opportunity and you have 
really plowed some difficult ground out there and we should not 
in the reauthorization crush that initiative. I mean, I think 
that is important.
    There are laggards, there are people who have 1,000 
excuses. I have listened to them. I have been on this committee 
for 39 years. I have had more 5-year plans than the Soviet 
Union, and they haven't worked out terribly well; about the 
same, about the same.
    And I hate 5-year plans because that really tells me we are 
sort of kissing off if we don't do it right, 7 or 8 years 
before we get back to that school and we revise it again and 
get it up and running and that looks like a lot of kids that 
are ill-prepared to continue on.
    So I think you are going to find out that you may have 
really laid the foundation here for a really important 
discussion on both sides of the aisle about how we proceed on 
ESEA, and I just want to thank you very, very much.
    I hope we can call on you as we go through this process 
over the coming months, and use you as a little bit of a 
faculty here.
    Thank you.
    Mr. Rokita. I thank the gentleman.
    As the chair of the Early Childhood and Secondary Education 
Subcommittee, let me say that I enjoyed the testimony that I 
heard. I enjoyed learning from you, and let me also say that I 
echo almost everything that Mr. Miller is saying.
    The big difference being that as he said, he has been here 
39 years and I have been here for 3. So I don't know if that is 
a comment on me or Mr. Miller or both, but I appreciate the 
spirit and the bipartisanship also of this hearing.
    I am also optimistic and it is because of you and the 
people you represent--not only the students but also the 
professionals that you represent by your testimony here today 
and I think that is positive.
    I do trust you and those that you represent perhaps more 
than some on this committee based on what I heard but maybe 
less than others, I am not so sure but the point is I trust the 
states. I trust the school districts to know what is best for 
their students first off.
    And I do trust less the bureaucrats that I find in that 10-
story or so building down the street to know what is best for 
our kids. Maybe that is the one difference today.
    But certainly, we do understand and respect the roles of 
the different parts of government and again, I do also hope 
that we use your testimony as we look forward to this 
reauthorization and take what you have told us here today and 
make sure that the best, the good parts of ESEA, No Child Left 
Behind, whatever you want to call it, are kept at least for 
measurement purposes so we can do the best job we can, not for 
us, not for the unions, but for our children and our future.
    So with that, there being no further business before this 
committee, I thank you again and this committee stands 
adjourned.
    [Additional submission of Hon. John F. Tierney, a 
Representative in Congress from the State of Massachusetts, 
follows:]

 Prepared Statement of Monty Neill, Ed.D., Executive Director, FairTest

    Mr. Chairman, Members of the Committee, thank you very much for 
allowing this testimony on the vitally important questions of 
assessment and accountability.
    My name is Monty Neill, and I am the executive Director of 
FairTest, the National Center for Fair & Open Testing. (See http://
www.fairtest.org.)
    Educationally beneficial accountability must rest on strong 
evidence of important learning outcomes and other strong information 
about school quality. Accountability must be structured first and 
foremost to assist school improvement. Where schools clearly are unable 
to improve, then a healthy accountability system requires stronger 
actions.
    In this testimony I seek to accomplish the following:
    1) To explain the scope and reasons for a growing parent, student, 
teacher and public backlash against high-stakes standardized testing, 
the central component of current accountability systems.
    2) To summarize briefly and provide references on how and why 
testing has failed as the key component of accountability.
    3) To describe and provide examples of what assessment could be, 
describing systems Congress should help states develop.
    4) To briefly discuss and provide references on the misuse of 
testing in the evaluation of teachers. And,
    5) To outline a step by step accountability structure that Congress 
could implement to replace No Child Left Behind and the waiver system 
the administration has persuaded many states to implement.
    Please note that I also chair the Forum on Educational 
Accountability. I am not presenting on their behalf, but I am using a 
good deal of their work in presenting a superior accountability system. 
(See http://www.edaccountability.org.)
Resistance
    We are in a time of rapidly growing resistance to high-stakes 
misuses of standardized tests. Let me give you some examples:
    Providence Students held a zombie walk; they persuaded a group of 
prominent citizens to take the state test--and most of them failed it. 
They also released a program for genuine school reform, including use 
of authentic performance assessments.
    In New York City parents and students boycotted testing in 30 
schools, then held a 500-person rally. Such boycotts occurred across 
New York State, where 1600 principals have signed a petition against 
test misuse, while hundreds of researchers signed an open letter 
against high stakes testing. Researchers in Massachusetts, Chicago and 
Georgia have signed similar letters.
    In Chicago, students boycotted, parents held a play-in at school 
headquarters, and a steady flow of public forums on testing have been 
held across the city. Numerous grassroots community groups have joined 
with parent and student groups and the Chicago Teachers Union to forge 
a growing movement. The union made the use of student test scores to 
judge teachers a key issue in their successful strike last spring, a 
strike that polls said had the support of a strong majority of the 
city's people. In response, Chicago has dropped some testing.
    In Indiana, voters elected Glenda Ritz, a critic of high-stakes 
testing, over Tony Bennett, a staunch defender of such testing.
    In Seattle, teachers have twice boycotted tests that are not 
connected to the curriculum and eat up computer labs for a third of the 
school year, denying students time to use computers for real 
educational pursuits. Students themselves boycotted the tests when 
administrators tried to administer them. The administration has reduced 
the amount of MAP testing--the target of the protests--and educators 
promise to continue their efforts to ensure reasonable testing.
    And in other states, parents and students have `opted out' of the 
tests, including in California, Colorado, Oregon, Oklahoma, Florida and 
Pennsylvania.
    All this comes on top of the National Resolution on High Stakes 
Testing, sponsored by FairTest and a dozen others, calling for a 
sweeping overhaul of assessment and accountability. (See http://
timeoutfromtesting.org/nationalresolution/). That resolution has been 
endorsed by more than 530 organizations and 17,000 individuals. Before 
that was the Texas school boards resolution, which said testing is 
``strangling'' education. It has been signed by 86% of Texas school 
boards. That has laid the ground for what is likely to be a marked 
retreat in the amount of mandated testing through bills nearing passage 
in the Texas legislature.
    People are rebelling over the amount of tests, the low quality of 
the tests, and their misuse as high stakes hurdles for students, 
teachers and schools.
The tests
    I've not the space to discuss in detail the limits and flaws of the 
tests or the damage caused by their high-stakes misuse. I'll just make 
a couple of key points, and direct you to references.
    First, the tests are narrow and measure only a limited slice of 
what students need to know and be able to do. High stakes pressures too 
many schools to teach to the test, narrowing the curriculum and 
undermining subject quality. This denies children the high-quality 
education they need and desrve. It is a likely reason why gains in NAEP 
have slowed and even halted in both subjects, at grades 4 and 8 and 12, 
for almost every demographic group. Quite simply, the testing mania is 
not working (Guisbond, Neill and Schaeffer, 2012).
    Second, the looming Common Core tests will be, at best, marginally 
better, a point also raised by the Gordon Commission report. 
Unfortunately, these new tests have devoured hundreds of millions of 
dollars and may dominate schooling in the next few years. They will not 
solve the problem of assessment quality; the high stakes misuses 
remain; the negative consequences will also continue. (FairTest, 2012a; 
Gordon Commission, 2013.)
    Third, we still have no serious proof that schools can overcome the 
effects of poverty and racism on a wide scale. Schools continue to 
account for some 25% of the variance in student outcomes. We should 
continue to work to improve schools, and perhaps the impact of schools 
can increase as schools strengthen. But pretending that schools alone 
will solve poverty, and will do so via standards and tests, is 
dangerous. It leads us to blame schools and educators for things they 
cannot possibly accomplish, provides excuses for continuing to poorly 
fund schools and related programs such as early childhood programs, and 
allows us to avoid addressing issues of jobs, income, housing, 
transportation, and other factors that, more powerfully than schools, 
create the odds of student success.
    None of this means we should not assess students, evaluate teachers 
and schools, gather information that can be used to improve schools, or 
require no accountability. It means we have failed to construct an 
educationally sound and healthy way of meeting those important goals.
What should we do instead: Assessment
    Over the years, FairTest and its allies have developed a multi-part 
proposal for assessment and evaluation. It includes limited use of 
large-scale tests, a core of information from classroom and school 
evidence, and use of school quality reviews (Neill, 2010).
    Large-scale tests. Many nations with better and more equal 
education outcomes test only one to three times before high school 
graduation and largely avoid multiple-choice questions (Darling-
Hammond, 2010a; FairTest, 2010). Congress should require statewide 
tests once each in elementary, middle and high school, in language arts 
and math. Congress could allow states to sample, as NAEP does. The 
critical point is that no stakes should be attached to these 
standardized exams. Rather the results would help inform an overall 
evaluation. Where serious discrepancies exist between test results and 
other evidence, that could be the basis for an investigation.
    Local and classroom evidence of learning. If you want to find out 
what kids know and can do, look at their actual work. This is what many 
other countries do (Darling-Hammond, 2010b). By focusing on the 
classroom, we can assess important learning standardized tests cannot, 
such as research projects, oral presentations, essays, using computers 
to solve real-world problems. Such assessments enable us to evaluate 
higher order thinking skills and deeper knowledge about student 
learning than can standardized tests. (Forum on Educational 
Accountability). Developing and using high-quality assessment improves 
teaching and learning. The evidence can be summed up and presented 
annually to the school's community and the state (Neill, 2010; FairTest 
2010).
    Building the system on local evidence means trusting teachers. Some 
need to improve their assessment skills, so ensuring teachers can work 
and learn together is important. This is what high-performing nations 
have done (Darling-Hammond, 2010, a, b).
    To ensure quality, some other countries have systems where samples 
of student work from each classroom are re-scored by independent raters 
to verify a teacher's initial score (``moderation''). This has been 
done well enough to ensure local quality and provide comparability 
across a state. (FairTest, 2010, provides examples and links.) Schools 
would explain their results in an annual report.
    Here I will turn to two examples, as this is the heart of our 
position: it is feasible to use classroom and school-based evidence in 
an evaluation process.
    The New York Performance Standards Consortium includes 26 high 
schools, 24 of them in New York City, that use a common use a 
``practitioner-developed and student-focused performance assessment 
system'' (New York Consortium, 2013). They require graduating students 
to prove their subject knowledge through performance-based assessment 
tasks that show oral and written skill, including an analytic literary 
essay, an applied math project, an original science experiment showing 
understanding of the scientific method, and a history research paper 
showing valid use of argument and evidence. The tasks are practitioner-
based, student-centered.
    The students in the New York City Consortium schools are 
demographically nearly identical to the city as a whole. Their results, 
which they attribute most strongly to their assessment system, far 
exceed New York City averages, in terms of graduation rates, college 
attendance and persistence in college. Indeed, they exceed the national 
average for percentage of grads still in college in year 3. Test-based, 
top down education `reform' in New York City, has not worked; the 
Consortium has.
    The Consortium requires that students and teachers work together to 
develop the topics for the graduation tasks. Each student may have her 
own task. They are worked on over weeks, not just one or a few periods 
as with Common Core tasks. They are judged using a common scoring guide 
across consortium schools. Students must defend their tasks before a 
committee, including their teacher and two others, usually from outside 
the school--as do doctoral candidates. Samples are re-scored to ensure 
consistency across the schools. The system has been independently 
reviewed and found to be sound.
    The Learning Record (n.d.) was developed for use with multi-
lingual, multi-cultural populations, to assess progress in reading, 
writing, speaking and listening. Using a structured format, the teacher 
regularly observes and describes the student and her work, and collects 
work samples, to provide multiples sources and types of evidence. This 
is a very detailed process that takes place throughout the school year. 
The Record is a well-structured instrument that provides clear guidance 
on how teachers are to document learning across relevant dimensions, 
from phonemic awareness to deep comprehension, going well beyond what 
standardized tests measure. Student progress is summarized in writing 
and the level of learning is placed numerically on a developmental 
scale. LRs have been re-scored, using hundreds of records, with high 
inter-rater agreement, and studies have supported its validity.
    I would note that there are similarities between the Learning 
Record and the Work Sampling System developed by Samuel Meisels, which 
also provides in-depth classroom-based information, can use moderation, 
and has been validated for use with younger children, ages 3--8 
(FairTest, 2010).
    These are different kinds of systems, but they are complementary. 
Certainly project-based learning fits with the Learning Record, and 
Consortium schools often rely on portfolios.
    For producing public reporting, for large-scale purposes, the key 
point here is that teacher judgments can be verified if the structures 
for gathering the work and the processes of evaluation, the scoring 
guides and procedures, are sufficiently clear and strong.
    Moderation, systems of re-scoring and sometimes score adjusting, 
has been used successfully in other nations (Darling-Hammond, 2010a).
    My point is that large-scale moderation rooted in high quality 
assessment practices can work. This need not be hugely expensive 
provided that a) moderating becomes a normal part of teachers' work, 
and b) moderation uses samples. The idea here is that if 3-5 randomly 
selected Records or Portfolios or common tasks from a given classroom 
are re-scored, and the teacher's score found accurate, then we can have 
good confidence in her general accuracy. A placement of `3' on a 
developmental scale on the Record, or a passing or exemplary score on a 
task, would mean the same across a wider area, such as a state.
    Congress should take steps to dramatically shift course to this 
direction. However, if Congress is not ready to take such a step, it 
should authorize a pilot project for states to voluntarily begin 
constructing truly new, educationally sound assessment systems. I 
attach a draft amendment toward that end.
    Two additional quick points:
    First, building this system requires significant professional 
learning. That is a good thing, because the result is superior 
teachers, teachers who know their subject, their craft and their 
students better.
    Second, this cannot work in a context of punitive accountability. 
Evidence, outcomes, must be understood by educators and communities as 
being used to help improve teaching and schools. Teachers who cannot do 
their jobs well should be counseled out and if necessary removed, which 
good teachers will support, and the system I have described will 
provide far better evidence for that process than do standardized test 
scores. Similarly, schools that cannot improve despite assistance do 
require interventions, perhaps including staff removal. But if this is 
seen as the purpose of the system, or as a quite possible outcome based 
on bad and erratic data, as it now is in many cities, the system will 
not work properly.
A note on teacher evaluation
    The preponderance of research evidence shows that tools such as 
value added and growth formulas cannot be used fairly in judging 
teachers in real-world contexts (FairTest, 2012b). Efforts to take 
account of factor such as varying student backgrounds, are inadequate. 
The very process of using student scores even as a weighted fraction of 
decisions will be damaging to the life of schools, in part because it 
will intensify teaching to inadequate tests. The administration should 
never have required this of states to obtain NCLB waivers, nor should 
Congress require it when it reauthorizes ESEA (FEA, 2011b).
    But, teachers should be evaluated, and student learning should be 
part of that evaluation. Thus, use of rich forms of evidence of student 
learning should be included with well-designed reviews and systems such 
as Peer Assistance and Review. Montgomery County used this well. One 
consequence was that a significant portion of teachers did leave. 
Another was that teachers knew they had a tool that was helpful. I use 
the past tense because Montgomery County believes that imposition of 
the use of student scores to judge teachers will sabotage what has been 
a productive system.
What should we do: Accountability
    The Forum on Educational Accountability has proposed a 
fundamentally different approach to accountability. Its work rests on a 
key point in the Joint Organizational Statement on No Child Left Behind 
(2004), now endorsed by more than 150 national education, civil rights, 
religious, disability, parent and civic organizations: Overall, the 
law's emphasis needs to shift from applying sanctions for failing to 
raise test scores to holding states and localities accountable for 
making the systemic changes that improve student achievement. The Forum 
(n.d.) has focused on assessment, accountability, school improvement, 
and equity/opportunity to learn.
    FEA's (2011a) recommendations on accountability for the 
reauthorization of ESEA say:
    <bullet> Eliminate ``adequate yearly progress'' (AYP) requirements 
and sanctions, but continue reporting important data disaggregated by 
demographic group. Avoid tying goal of ensuring all students are on 
track to be college and workforce ready to any arbitrary deadline. 
Expect demonstration of reasonably attainable rates of improvement 
(e.g., those now achieved by schools in the top quarter on improvement 
rates).
    <bullet> In evaluating and recommending interventions in and 
changes to schools or districts, use both multiple sources of evidence 
(comprehensive indicators) and periodic reviews of schools and 
districts by qualified state teams.
    <bullet> Allow a broad, flexible range of ``turnaround'' options. 
Use indicators and reviews to tailor change actions to schools' needs. 
Build improvement plans from elements demonstrated to be essential to 
school improvement--e.g., collaborative professional development, 
strong leadership, parent involvement, and rich and challenging 
curriculum--and allow schools and districts to determine how they will 
address these areas to help build their capacity for long-term 
improvement.
    <bullet> Establish the principle of holding schools and districts 
accountable through monitoring and appropriate public reporting to 
ensure consistent, successful efforts to fulfill improvement plans.
    <bullet> Set the percentage of schools required to engage in 
turnaround activities based on standards for intervention and federal 
appropriation levels, rather than set percentages regardless of 
funding.
    <bullet> Assist states and districts in developing and implementing 
sound and fair schoolwide evaluation policies aimed at schoolwide 
improvement, rather than the Blueprint model, which largely shifts 
test-based accountability from schools to educators. Educator 
evaluation programs should include evidence of student learning and 
other measures of educator competency, but the federal government 
should not mandate the inclusion of scores from large-scale tests.
    Further discussion of a few of these recommendations:
    FairTest also recommends consideration of school quality reviews 
(SQR) as a means to accomplish the ongoing school evaluations that FEA 
recommends regarding accountability and improvement. The SQR is the 
central tool for school evaluation in places such as England and New 
Zealand (see Rothstein, 2008; Ratner &Neill, 2009). Instead of test 
results, their systems focus on a comprehensive school review by a team 
of qualified professionals every 4-5 years. This leads to a report 
describing the school and recommending actions for improvement. Schools 
that need extra help would be reviewed more frequently. Schools that 
are reviewed would also provide extensive data about their resources, 
their processes, how they strive to improve, problems they are 
encountering, and so on.
    This is usually envisioned as a formal process and would be 
controlled by the state. It may be that states would prefer a more 
informal process. For example, in England a network, Raising 
Achievement, Transforming Learning (RATL) pairs schools so they can 
help each other (Hargreaves and Shirley, 2009). These have been shown 
to produce improvement. Interestingly, it is not necessary to pair a 
good school with a weak school--even two weak schools collaborating 
seem to produce significant improvement. It seems to be the process of 
thinking and working together that spurs positive changes.
    For a more formal evaluation system, the SQR can make a useful 
contribution by providing rich information beyond evidence of student 
learning. Schools are not only places of learning, they should be 
places where children are healthy and happy as well as challenged and 
supported to learn, in social, emotional and behavioral ways, as well 
as academically. SQRs, complemented by other sources of information, 
can provide information for evaluation and more importantly for 
improvement.
    FEA also has developed a proposal for turnarounds based on ``common 
elements'' identified by research as key to successful schools and 
turnaround efforts. FEA recommends that this approach replace the four 
requirements in Race to the Top and the Department's NCLB waivers. At a 
minimum, should Congress retain those four options, then ``common 
elements'' should be an additional option. Unlike the Administration's 
approach, ``common elements'' are based on research and evidence from 
practice. (See Forum on Educational Accountability, 2010; Ratner & 
Neill, 2010.)
In conclusion
    In a period of strong and growing resistance to tests, tests that 
are educationally inadequate and whose use is failing to genuinely 
improve America's schools, as will be the case with the coming Common 
Core tests, it is imperative that Congress take steps to dismantle the 
educationally harmful test and punish system it has created.
    But we do need to evaluate students, teachers, schools and systems. 
Schools and districts do need to give an accounting to their 
communities, the public and the state. The state will need at times to 
intervene to ensure local officials do their jobs well and schools do 
their best. And it is fundamentally important to provide educationally 
sound assistance to schools in need.
    The procedures I have described can do that, and do it in ways that 
are educationally beneficial. FairTest--and FEA--propose a fundamental 
overhaul of federal law. This now seems beyond what Congress proposes 
to do. But we should dream big, our children deserve it. The current 
system does not work, nor will tinkering solves its dangerous 
inadequacies. Instead, Congress needs to move in a dramatically 
different direction. I hope this testimony will help you consider 
whether and how to do so.
                               references
Darling-Hammond, L. 2010a. Benchmarking Learning Systems: Student 
        Performance Assessment in International Context. http://
        edpolicy.stanford.edu/pages/pubs/pub--docs/assessment/scope--
        pa--ldh.pdf.
Darling-Hammond, L. 2010. The Flat World and Education. New York: 
        Teachers College Press. FairTest. 2012a. Common Core 
        Assessments: More Tests, But Not Much Better. http://
        www.fairtest.org/common-core-assessments-more-tests-not-much-
        better. Contains further research links.
FairTest. 2012b. Why Teacher Evaluation Shouldn't Rest on Student Test 
        Scores. http://www.fairtest.org/sites/default/files/Teacher-
        Evaluation-FactSheet-10-12.pdf. Contains extensive bibliography 
        on this topic.
FairTest. 2010. Multiple Measures: A Definition and Examples from the 
        U.S. and Other Nations. http://www.fairtest.org/sites/default/
        files/MultipleMeasures.pdf.
Forum on Educational Accountability (FEA). n.d. Reports, position 
        papers and recommendations. http://www.edaccountability.org/.
Forum on Educational Accountability (FEA). 2011a. Recommendations for 
        Improving ESEA/NCLB--Summary. http://www.edaccountability.org/
        FEA--2--Page--Summary--Recommendations--2011--final.pdf.
Forum on Educational Accountability (FEA). 2011b. ``What Should 
        Congress Do About Teacher Evaluation?'' http://
        edaccountability.org/What--Should--Congress--Do--About--
        Teacher--Evaluation-
--FEA--letter--9-20-11.pdf.
Forum on Educational Accountability (FEA). 2010. A Research- and 
        Experience-Based Turnaround Process. http://
        www.edaccountability.org/pdf/FEA-
        TurnaroundStatementJune2010.pdf.
Forum on Educational Accountability, Expert Panel on Assessment. 2007. 
        Assessment and Accountability for Improving Schools and 
        Learning. http://www.edaccountability.org/
        AssessmentFullReportJUNE07.pdf
Gordon Commission on the Future of Assessment in Education. 2013. A 
        Public Policy Statement. http://www.gordoncommission.org/rsc/
        pdfs/gordon--commission--public--policy--report.pdf.
Guisbond, L., Neill, M., & Schaeffer, B. 2012. NCLB's Lost Decade for 
        Educational Progress: What Can We Learn from this Policy 
        Failure? http://fairtest.org/sites/default/files/NCLB--Report--
        Final--Layout.pdf. Contains relevant, extensive bibliography.
Hargreaves, A., and Shirley, D. The Fourth Way. Thousand Oaks, CA: 
        Corwin. Joint Organizational Statement on No Child Left Behind. 
        2004. http://www.edaccountability.org/Joint--Statement.html.
Learning Record. N.d. http://learningrecord.org.
Neill, M. 2010. ``A Better Way to Assess Students and Evaluate 
        Schools,'' Education Week, June 18. http://www.edweek.org/ew/
        articles/2010/06/18/36neill.h29.html.
New York Peformance Standards Consortium. 2013. Educating for the 21st 
        Century: Data Report on the New York Performance Standards 
        Consortium. http://performanceassessment.org/articles/
        DataReport--NY--PSC.pdf. More about the Consortium can be found 
        at http://performanceassessment.org/.
Ratner, G., and Neill, M. 2010. Common Elements of Successful School 
        Turnarounds: Research and Experience. http://
        www.edaccountability.org/pdf/
        CommonElementsSuccessfulSchoolTurnarounds.pdf. Documents the 
        research evidence behind FEA `common elements' recommendations.
Ratner, G., and Neill, M. Integrating `Helping Schools Improve' With 
        `Accountability' Under ESEA: ``The Key Role For Qualitative, As 
        Well As Quantitative, Evaluations And The Use Of 
        Inspectorates,'' Working Paper II. http://www.fairtest.org/
        sites/default/files/SQR--Inspectorate--working--paper--2.pdf.
Rothstein, R. 2008. Grading Education: Getting Accountability Right. 
        Washington and New York: Economic Policy Institute/Teachers 
        College Press. See esp., Ch. 7.
                                 ______
                                 
    [Whereupon, at 12:26 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
